APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(June 30, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum and Order in the
United States District Court Southern
District of Texas Houston Division
(February 22, 2019) . . . . . . . . . . App. 25
Appendix C Final Judgment in the United States
District Court Southern District of
Texas Houston Division
(February 6, 2019) . . . . . . . . . . . App. 66
Appendix D Memorandum and Order in the
United States District Court Southern
District of Texas Houston Division
(June 24, 2019) . . . . . . . . . . . . . . App. 68
Appendix E Order Denying Petition for Panel
Rehearing in the United States Court
of Appeals for the Fifth Circuit
(August 11, 2020) . . . . . . . . . . . . App. 71
Appendix F Jury Demanded Charge of the Court
in the United States District Court for
the Southern District of Texas
Houston Division
(January 23, 2019) . . . . . . . . . . . App. 73

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20482
[Filed: June 30, 2020]
__________________________________________
CONSTRUCTION COST DATA, L.L.C.;
)
THE JOB ORDER CONTRACT GROUP,
)
L.L.C.; MANAGED J.O.C.
)
SOLUTIONS, L.L.C.,
)
)
Plaintiffs - Appellants
)
Cross-Appellees
)
)
v.
)
)
THE GORDIAN GROUP,
)
INCORPORATED; R.S. MEANS
)
COMPANY, L.L.C.,
)
)
Defendants - Appellees
)
Cross-Appellants
)
__________________________________________)
Appeals from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-114
Before DAVIS, GRAVES, and DUNCAN, Circuit
Judges.

App. 2
PER CURIAM:*
Plaintiffs, Construction Cost Data, L.L .C., and Job
Order Contracting Group, L.L.C. (collectively “CCD”),
appeal the district court’s judgment in favor of
Defendants, The Gordian Group, Inc., and R.S. Means
Company, L.L.C. (collectively “Gordian”). CCD argues
that (1) the district court violated Rule 48, which
requires a unanimous verdict and a polling of the jury
upon a party’s request, when it issued its judgment;
(2) the district court erred in entering judgment for
Defendants based on the unanimous answer to Jury
Question 12, which related to the Noerr-Pennington
affirmative defense, because the answers to the jury
interrogatories were irreconcilable and/or indicated
jury confusion; (3) the district court abused its
discretion in excluding evidence at trial of Defendants’
alleged fraudulent procurement of their trademark and
copyright registrations; and (4) the district court erred
in concluding that Noerr-Pennington immunity was
applicable here. Defendants cross-appeal the district
court’s summary-judgment dismissal of their
trademark infringement claim against Plaintiffs. For
the reasons set forth below, we conclude that the
parties’ various challenges to the district court’s
judgment are without merit. Therefore, we AFFIRM.
I. BACKGROUND
Job order contracting is a construction procurement
method allowing multiple jobs from a single bid
*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 3
contract. An integral component of job order
contracting is the “unit price book,” which provides all
of the relevant preset prices, including but not limited
to labor, material, and equipment costs, for
construction tasks a contractor might be called upon to
provide during the course of the contract. In 2015, CCD
introduced a unit price book called the “Construction
Cost Catalogue” into the job order contracting industry.
Gordian contended that Plaintiffs’ Construction
Cost Catalogue infringed on the copyright and
trademark of its unit price book, the “Construction
Task Catalog.” Gordian sent cease-and-desist letters to
CCD and a cooperative association working with CCD,
asserting that CCD was improperly using Gordian’s
proprietary material and intellectual property through
its Construction Cost Catalogue. As a result of the
cease-and-desist letters, CCD lost contracts and future
business opportunities. CCD subsequently filed suit in
state court against Gordian for tortious interference
with contract, antitrust violations, and business
disparagement. Gordian removed the case to federal
court and filed counterclaims against CCD for
copyright and trademark infringement, as well as
unfair competition.1
CCD filed an amended complaint, which Gordian
moved to dismiss under Rule 12(b)(6). Gordian argued
that it was immune from any liability resulting from its
cease-and-desist letters pursuant to the NoerrPennington doctrine and that the “sham” exception to

1

Gordian also filed a third-party demand against Benjamin Stack
and Mark Powell, who were alleged to have formed CCD.

App. 4
the doctrine did not apply because the letters were not
objectively baseless.2 The magistrate judge issued a
report recommending that Gordian’s motion to dismiss
be denied, which the district court adopted. Gordian
later filed a motion for summary judgment, reasserting
that it was entitled to Noerr- Pennington immunity and
that therefore Plaintiffs’ claims should be dismissed.
The district court denied the motion.
CCD also filed a motion for partial summary
judgment seeking dismissal of Gordian’s counterclaims
of copyright and trademark infringement. The district
court determined that “Construction Task Catalog” was
not entitled to trademark protection because it was a
generic term. Consequently, the district court granted

2

The Noerr-Pennington doctrine comes from two Supreme Court
cases: Eastern Railroad Presidents Conference v. Noerr Motor
Freight, Inc., 365 U.S. 127 (1961), and United Mine Workers of
America v. Pennington, 381 U.S. 657 (1965). “The essence of the
doctrine is that the parties who petition the government [including
the courts] for governmental action favorable to them cannot be
prosecuted under the antitrust laws even though their petitions
are motivated by anticompetitive intent.” Video Int’l Prod., Inc. v.
Warner-Amex Cable Commc’n, Inc., 858 F.2d 1075, 1082 (5th Cir.
1988). The doctrine has been expanded to include more than just
antitrust claims, but also state law claims such as tortious
interference with contract. Id. at 1084. It has also been interpreted
to cover pre-litigation conduct such as cease-and-desist letters.
Coastal States Mktg., Inc. v. Hunt, 694 F.2d 1358, 1367-68 (5th Cir.
1983). The doctrine is inapplicable, however, if Defendants’
activities were “objectively baseless in the sense that no reasonable
litigant could reasonably expect success on the merits” and, if so,
the baseless activities conceal an attempt to harass or interfere
directly with the business relationships of a competitor. Prof’l Real
Estate Investors, Inc. v. Columbia Pictures Indus., Inc., 508 U.S.
49, 60-61 (1993) (describing “sham” exception).

App. 5
summary judgment in favor of CCD and dismissed
Gordian’s trademark infringement claim. As to
Gordian’s copyright infringement claim, however, the
district court concluded that there were genuine issues
of material fact for trial and denied summary
judgment.
The case then proceeded to trial before a jury. The
jury charges were lengthy, and there were twentyseven special jury interrogatories. The jury could not
reach a unanimous decision on five of the questions.
Although instructed not to do so, the jury indicated the
number of jurors voting “yes” and the number voting
“no” next to the non-unanimous answers. After the
district court read the jury’s answers on the record, the
court noted that the verdict was “not immediately
comprehensible” and excused the jury “so the lawyers
[could] debate the verdict form.”
Gordian argued that the case was over because the
jury’s unanimous answer to Question 12 entitled
Gordian to Noerr-Pennington immunity from all of
CCD’s claims, and the jury’s unanimous answer to
Question 22 required dismissal of Gordian’s copyright
infringement claim against CCD. CCD asserted that
the answer to Question 12 was inconsistent with the
answers to Questions 9, 10, and 11. CCD further
requested that the district court give the jury a charge
under Allen v. United States3 and allow the jury to
deliberate further regarding the non-unanimous
answers, but the district court denied the request.
Instead, the district court ordered the parties to submit

3

164 U.S. 492 (1896).

App. 6
briefs regarding how it thereafter should proceed and
stated that “if we’ll have the jury back, let’s do it
quickly.”
CCD filed a motion requesting that the jury be
recalled to continue deliberations or that a new trial be
ordered under Rule 49. CCD reasserted that the jury’s
response to Question 12 contradicted the responses to
Questions 9-11. CCD further argued that the jury’s
award of $2.33 million dollars in damages in favor of
CCD and the jury’s responses on the whole showed that
the jury believed Gordian unjustifiably harmed CCD
and that Gordian should be ordered to pay damages as
a result. Gordian reasserted that the district court
should enter judgment in accordance with the jury’s
unanimous answer to Question 12 calling for
application of Noerr-Pennington immunity and its
unanimous answer to Question 22 in which the jury
determined that Gordian failed to prove copyright
infringement.
After hearing argument on CCD’s motion, the
district court agreed with Gordian and entered a final
judgment in favor of Gordian on CCD’s claims of
tortious interference with contract, antitrust violations,
and business disparagement, and in favor of CCD on
Gordian’s counterclaim of copyright infringement. The
district court also issued a lengthy memorandum and
order denying CCD’s Rule 49 motion for continued jury
deliberations or new trial.
CCD then filed a Rule 59 motion for new trial or
alternatively motion to modify judgment. CCD re-urged
the grounds for a new trial set forth in its Rule 49
motion. Additionally, CCD argued that under Rule 48,

App. 7
which requires a unanimous verdict unless the parties
stipulate otherwise, the district court had only two
options in the face of the non-unanimous answers
returned by the jury: recall the jury and encourage
further deliberations or declare a mistrial. The district
court denied CCD’s Rule 59 motion, noting that it
previously addressed many of CCD’s arguments in its
decision denying CCD’s Rule 49 motion. CCD and
Gordian filed timely notices of appeal.
II. DISCUSSION
A. Rule 48
On appeal, CCD reasserts its argument that the
district court violated Rule 48 of the Federal Rules of
Civil Procedure when it issued its judgment. Under
Rule 48, “[u]nless the parties stipulate otherwise, the
verdict must be unanimous . . . .”4 The rule further
provides:
After a verdict is returned but before the jury is
discharged, the court must on a party’s request,
or may on its own, poll the jurors individually. If
the poll reveals a lack of unanimity or lack of
assent by the number of jurors that the parties
stipulated to, the court may direct the jury to
deliberate further or may order a new trial.5
CCD argues that the district court’s judgment violates
the above provisions of Rule 48 because the verdict was
not unanimous and because it was “deprived of the
4

FED. R. CIV. P. 48(b).

5

FED. R. CIV. P. 48(c).

App. 8
right to conduct a jury poll.” It further contends that in
violating Rule 48, the district court also violated its
Seventh Amendment right to a jury trial, and that this
error is per se reversible.
1. Unanimity Requirement
CCD is correct that Rule 48 requires a unanimous
verdict. Under this court’s precedent, however, “a jury’s
failure to reach a verdict on every interrogatory does
not prevent a court from accepting the properlyanswered interrogatories.”6 Specifically, “[p]roperlyanswered interrogatories may support a verdict on the
issues to which they respond. This is true even if other
claims in the case remain unsettled.”7
Other circuits have noted the various options
available to a district court when a jury fails to agree
unanimously on all interrogatory answers.8 These
options include (1) resubmitting the issues to the jury
for further deliberation in the hope of obtaining
unanimous answers, (2) asking the parties if they
would be willing to forego the requirement of
unanimity and accept a majority verdict, (3) entering
judgment on the basis of the unanimous verdicts if they
are dispositive of the case, (4) declaring the entire case
a mistrial and ordering the case reheard in its entirety,

6

Bridges v. Chemrex Specialty Coatings, Inc., 704 F.2d 175, 180
(5th Cir. 1983) (citations omitted).
7

8

Id.

Baxter Healthcare Corp. v. Spectramed, Inc., 49 F.3d 1575,
1580-81 (Fed. Cir. 1995).

App. 9
and (5) ordering a partial retrial only as to those issues
which were not unanimously agreed upon by the jury.9
In this matter, the district court entered judgment
on the basis of the jury’s unanimous answer to
Question 12 , which it held established that the “sham”
exception to Noerr-Pennington immunity did not apply
and consequently required dismissal of all of CCD’s
claims against Gordian. The district court also entered
judgment on the basis of the jury’s unanimous answer
to Question 22, which established that Gordian did not
meet its burden of proof on its claim of copyright
infringement and consequently required dismissal of
Gordian’s claim against CCD. Because the jury’s
unanimous answers to Questions 12 and 22 were
dispositive of all claims in this matter, the district
court rightly entered judgment in reliance on those
answers.10 Therefore, CCD’s argument that the district
court violated Rule 48 in entering judgment because
not all of the jury’s answers were unanimous is without
merit.
2. Polling of the Jury
CCD argues that the district court also violated
Rule 48 by denying CCD an opportunity to poll the
jury. CCD maintains that, contrary to Gordian’s
contention, it did not waive its right to poll the jury,
but that such right was taken away “when the court
secretly discharged the jury.”

9

Id. at 1581.

10

See id.; Bridges, 704 F.2d at 180.

App. 10
As reflected above, Rule 48 specifies that a party
may request the district court to poll the jury “[a]fter a
verdict is returned but before the jury is discharged,”
and that if a party makes such request within that
time period, “the court must” poll the jurors
individually. The trial transcript reveals that after the
jury returned its verdict and the district court read the
verdict on the record, the district court asked the
forewoman if its reading was correct, and the
forewoman answered affirmatively. Immediately
thereafter, the district court stated: “I think what we
need to do right now is excuse the jury so the lawyers
can debate the verdict form.” After the jury exited, the
district court said: “I think it’s going to take us a long
time to figure this out. Some of the questions were not
answered unanimously. I would propose that we send
the jury home today with the possibility of recalling
them. But what are your thoughts on it?”
CCD agreed with the court’s suggestion. Gordian
asserted that because the jury answered Question 12
unanimously, it was immune from all of CCD’s claims
under the Noerr-Pennington doctrine. The district court
responded, “That’s what we got to figure out. This
verdict is not immediately comprehensible.” The
district court then stated: “Normally at the end of a
trial, the Court, I, shake hands with the jury, and we
offer them a chance to take a photo, group photo. I’m
inclined to think I should do that, and then I’ll tell
them we may need them back another day.” Neither
party objected.
When the district court returned, the court stated
that it did not know “quite what to do with [the

App. 11
verdict]” and that it did “think there is some
inconsistency.” Gordian reasserted that that the
unanimous answer to Question 12 meant Gordian was
immune from all of CCD’s claims and that the
unanimous answer to Question 22 “found against
[Gordian] on copyright infringement.” Gordian posited
that “the case is therefore over.” CCD disagreed,
contending that the jury should continue to deliberate
the non-unanimous answers, and that, in any event,
the non-unanimous answers to Questions 9-11 were
inconsistent with the unanimous answer to Question
12. The district court denied CCD’s request to give the
jury an Allen charge, and it requested briefing on how
to proceed. The court stated: “If we’ll have the jury
back, let’s do it quickly.”
CCD argues that based on the above, it reasonably
understood that after briefing was submitted, the jury
would be re-called, and trial would resume to
determine if a complete and unanimous verdict could
be obtained. It asserts that “[t]he verdict was not final
and a request to poll the jury was premature.”
CCD is mistaken that a request to poll the jury
would have been premature. Rule 48 specifically
denotes the time period for requesting a poll: “[a]fter a
verdict is returned but before the jury is discharged.”11
In this case, a verdict was clearly returned and read
aloud by the district court, with the forewoman
confirming that the district court read the verdict
correctly. CCD could have requested a poll of the jury
starting at that point.

11

FED. R. CIV. P. 48(c).

App. 12
CCD’s argument that the district court “deprived”
it of its “opportunity to request a jury poll” is also
without merit. CCD had the opportunity to request a
poll any time after the verdict was read. Moreover, the
district court did not “secretly” discharge the jury.
Although the district court “excused” the jury after
reading the verdict, the district court solicited the
parties’ consent to proceed with what it would normally
do “at the end of a trial” and that it would inform the
jurors that they “may” need to come back another day.
CCD did not object to this procedure. The district
court’s actions and statements should have put CCD on
notice that the jury was potentially being discharged.
Under these circumstances, CCD’s argument that it
was denied the opportunity to poll the jury in violation
of Rule 48 is without merit.
B. District Court’s Reliance on Answer to Jury
Question 12
CCD reasserts its argument that the jury’s
interrogatory answers were irreconcilable and/or
indicated jury confusion such that the district court
erred in entering judgment for Defendants based on the
unanimous answer to Question 12, which related to
Noerr-Pennington immunity. Specifically, CCD asserts
that Jury Questions 9-12 substantively address the
same factual determination, i.e., whether there was
any merit to Gordian’s allegations of infringement as
stated in its cease-and-desist letters. CCD submits that
the jury’s responses to Questions 9, 10, and 11 directly
contradict the answer to Question 12; therefore, the
judgment should be reversed and the conflicting issues
retried. As explained below, we disagree.

App. 13
1. Standard of Review
This court “grant[s] considerable latitude to the trial
court when interpreting special interrogatories since it
is in a better position to analyze the jury’s intention[s]
and thus is charged, in the first instance, with the
obligation of giving effect to those intentions in light of
the surrounding circumstances.”12 Therefore, we review
the “trial court’s treatment of special interrogatories
only for abuse of discretion.”13 Similarly, we review the
trial court’s denial of a motion for new trial only for
abuse of discretion.14
2. Jury Questions 9-12
Jury Questions 9-11 were included under the
section of the jury packet entitled “Defenses,” and the
subsection entitled “Legal Justification.” The questions
asked whether Defendants had a “good-faith belief that
they had a valid basis to send cease-and-desist letters
regarding their copyrighted material.” Question 12 was
included in the jury packet under the subsection
entitled “Noerr-Pennington Doctrine” and had two
parts. The first part asked whether Gordian’s
pre-litigation correspondence was “objectively baseless
in the sense that no reasonable litigant could
reasonably expect success on the merits.” The second
part of Question 12 asked: “If the activity of the

12

Carr v. Wal-Mart Stores, Inc., 312 F.3d 667, 670 (5th Cir. 2002)
(internal quotation marks and citation omitted).
13

Id. (citation omitted).

14

Id.

App. 14
[Defendants] was objectively baseless, was the
subjective intent merely to interfere with the CCD
parties?”
The court’s charges immediately preceding Question
12 specifically described the circumstances under
which a lawsuit was “objectively baseless”—“no
reasonable litigant could realistically expect to win.”
The charges instructed the jurors that if they found
Gordian’s lawsuit “not objectively baseless,” then they
did not need to consider the second part of Question 12,
whether the lawsuit was “an attempt to harass or
interfere with the business relationships of the
Plaintiffs.”
The jury unanimously answered “no” to the first
part of Question 12, which asked: “Was the
[Defendants’] pre -litigation correspondence objectively
baseless in the sense that no reasonable litigant could
reasonably expect success on the merits?” The jury put
a slash next to the answer to the second part of
Question 12, indicating that, as instructed, it did not
consider whether the Defendants’ “subjective intent
[was] merely to interfere with the CCD Parties”
because it found that Defendants’ lawsuit was not
objectively baseless.
CCD argues that Questions 9-11, which asked
whether Defendants had “a good-faith belief that they
had a valid basis to send cease-and-desist letters
regarding their copyrighted material,” presented a
similar factual question as the first part of Question 12,
which asked whether Defendants’ correspondence was
“objectively baseless in the sense that no reasonable
litigant could reasonably expect success on the merits.”

App. 15
Because the jury answered, by a vote of 11 to 1, “no” to
Questions 9-11, and unanimously answered “no” to
Question 12, CCD contends that the district court’s
judgment must be reversed because it is based on
contradictory factual findings.
CCD is correct that if answers to jury
interrogatories reflect inconsistent fact findings
relating to a claim, the district court may not enter
judgment on that claim and instead must order a new
trial.15 This rule , however, applies only when the jury’s
inconsistent answers are unanimous.16 Because the
answers to Questions 9-11 were not unanimous, they
cannot be considered, in the first instance, as jury
findings. But we conclude that even if the jury’s
answers to Questions 9-11 were unanimous, there
would be no inconsistency with the answer to Question
12. CCD submits that Questions 9-11 essentially asked
the jury whether Defendants “believed they had any
valid basis” for sending the cease-and-desist letters
threatening litigation for infringement. CCD contends
that when 11 jurors answered “no” to Questions 9-11,
the jurors found that Defendants “knew their
infringement claims weren’t valid.” CCD argues that
such finding is inconsistent with the jury’s unanimous
finding in Question 12 that the cease-and-desist letters
were not objectively baseless.

15

See Guidry v. Kem Manufacturing, Co., 598 F.2d 402, 408 (5th
Cir. 1979).
16

See FED. R. CIV. P. 48(b) (“Unless the parties stipulate otherwise,
the verdict must be unanimous . . . .”).

App. 16
In Professional Real Estate Investors, Inc. v.
Columbia Pictures Industries, Inc., the case in which
the Supreme Court set forth the elements needed to
establish the “sham” exception to the Noerr-Pennington
doctrine, the petitioner similarly argued that the
respondent was not entitled to Noerr-Pennington
immunity because the respondent “did not honestly
believe that the infringement claim was meritorious.”17
The Court described the question presented by the case
as: “whether litigation may be sham merely because a
subjective expectation of success does not motivate the
litigant.”18 The Court “answered this question in the
negative and h[e]ld that an objectively reasonable effort
to litigate cannot be sham regardless of subjective
intent.”19
The Court’s decision in Professional Real Estate
Investors makes clear that even if a party does not
believe its infringement claim has merit, he may still
be entitled to Noerr-Pennington immunity if the claim
has objective merit.20 We disagree that the jury’s 11-1
answer that Defendants did not “have a good-faith
belief that they had a valid basis to send ceaseand-desist letters regarding their copyrighted material”
indicates jury confusion or is inconsistent with the
jury’s unanimous finding that the letters were not
17

508 U.S. 49, 54 (1993) (internal quotation marks and citation
omitted).
18

Id. at 57.

19

Id. (footnote omitted).

20

Id. at 60.

App. 17
“objectively baseless.” The Court in Professional Real
Estate Investors considered such a possibility and held
that a party’s subjective expectation, intent, and/or
motivation regarding its infringement claim were not
relevant if there was proof of the “objective legal
reasonableness of the litigation.”21
Based on the foregoing, we conclude that it was not
an abuse of discretion for the district court to rely on
the unanimous answer to Question 12 and render
judgment for Gordian based on the jury’s unanimous
finding that the cease-and-desist letters were not
objectively baseless.22
C. Alleged Evidence of Fraud
CCD argues that the district court abused its
discretion when it excluded evidence at trial regarding
Gordian’s procurement of trademark and copyright
registrations. CCD asserts that Gordian lied in its
applications and obtained the registrations through
fraud. It further contends that the exclusion of this
evidence prevented it from showing that Gordian’s
litigation was a “sham.”
CCD contends that when Gordian applied for a
trademark registration, it stated in its application that

21

22

Id. at 66.

At oral argument, CCD raised for the first time that the jury’s
unanimous answer to Question 8, in which the jury determined
that Defendants committed business disparagement, precluded
application of Noerr-Pennington immunity. We do not generally
consider points raised for the first time at oral argument. Bartel v.
Alcoa S.S. Co., Inc., 805 F.3d 169, 174 (5th Cir. 2015).

App. 18
it previously held a trademark for Construction Task
Catalog on the Principal Register, when in fact the
mark was on the Supplemental Register. As Gordian
argues, Gordian’s registration of the Construction Task
Catalog on the Supplemental Register was a matter of
public record. Gordian states that this was an
“unintentional error” that an examiner with the
Trademark Office would easily check as all trademark
registrations are public record.
In order to prove fraud on the Trademark Office,
CCD would need to show that the Trademark Office
reasonably relied on a false representation of material
fact.23 CCD would be unable to do so here because it
would not be reasonable for the Trademark Office to
rely on the error in Gordian’s application when the
public record would clearly show that its trademark
was previously on the Supplemental Register.
Moreover, as Gordian points out, CCD did not call any
witnesses from the Trademark Office, or any experts in
the field, who could testify that such reliance would be
reasonable. Allowing introduction of this evidence and
argument that such error constituted fraud would, as
the district court determined, be highly prejudicial to
Gordian under a Rule 40324 balancing test.

23

See Tex. Pig Stands, Inc. v. Hard Rock Café Int’l, Inc., 951 F.2d
684, 693 n.14 (5th Cir. 1992)
24

FED. R. EVID. R. 403 (“The court may exclude relevant evidence
if its probative value is substantially outweighed by a danger of
one or more of the following: unfair prejudice, confusing the issues,
misleading the jury, undue delay, wasting time, or needlessly
presenting cumulative evidence.”).

App. 19
The same is true with respect to Gordian’s
applications for copyright registration. CCD contends
that Gordian lied in its second copyright application
that its first application had been approved and that
only “minor” portions of its data were provided by a
third party. Again, as Gordian alleges, CCD did not
have an expert on this issue and it did not seek
testimony from the examiners involved from the
Copyright Office to testify regarding any reasonable
reliance on such alleged “lies.” As the district court
determined, raising the issue of fraud under these
circumstances would be highly prejudicial to Gordian.
In sum, the district court did not abuse its discretion in
excluding such evidence.
D. Applicability of Noerr-Pennington
CCD argues that Noerr-Pennington immunity in
this matter was misapplied and is not dispositive.
Specifically, CCD asserts that the district court
erroneously focused on whether the “sham”exception to
the doctrine was established without first deciding
whether the doctrine should have even been applied. It
contends that “[b]ecause misrepresentations and false
statements are not entitled to First Amendment
protections, they cannot be immunized under
Noerr-Pennington whether or not any exception is
applicable.”
As discussed above, however, the district court did
not abuse its discretion in excluding the evidence
of Gordian’s alleged fraudulent procurement of
trademark and copyright registrations. CCD argues
that, nevertheless, the cease-and-desist letters were
“false, or at best, misleading” because the jury

App. 20
unanimously found no copyright infringement and the
district court found no trademark infringement. But,
these findings do not establish that Gordian lied or
made misrepresentations in the cease-and-desist
letters; rather, they show that Gordian did not prove
the elements of trademark and copyright infringement.
The same is true of the jury’s favorable findings as to
CCD’s affirmative claims. Those findings showed that
CCD established the elements of its affirmative
claims,25 and not that Gordian lied or made
misrepresentations in its letters.
In sum, we conclude that the district court properly
applied the Noerr-Pennington doctrine in this matter,
and that CCD’s challenges to the application of the
doctrine are without merit.
E. Summary Judgment Ruling
On cross-appeal, Defendants argue that the district
court erred in dismissing on summary judgment their
claim against CCD for trademark infringement. We
review a district court’s grant of summary judgment de
novo.26 Summary judgment is appropriate “if the
movant shows that there is no genuine dispute as to

25

Although CCD argued at oral argument that the jury found that
Gordian made a false statement in its answer to Question 8, we do
not review arguments raised for the first time at oral argument. In
any event, CCD is unable to show that the district court plainly
erred.
26

Uptown Grill, L.L.C. v. Camellia Grill Holdings, Inc., 920 F.3d
243, 247 (5th Cir. 2019).

App. 21
any material fact and the movant is entitled to
judgment as a matter of law.”27
The district court found, and CCD argues on appeal,
that the “Construction Task Catalog” mark is generic
and thus not entitled to trademark protection. Gordian
contends that the mark is descriptive, and that there
was a genuine issue of material fact as to whether it
was entitled to trademark protection.
To be protectable, a mark must be “distinctive” in
one of two ways—either “inherently” or “by achieving
secondary meaning in the mind of the public.”28 A mark
is inherently distinctive “if its intrinsic nature serves
to identify a particular source,”29 and acquires
distinctiveness if, “in the minds of the public, the
primary significance of a mark is to identify the source
of the product rather than the product itself.”30

27

FED. R. CIV. P. 56(a).
Because the evidence of Defendants’ “alleged fraud” was
properly excluded, we need not decide whether misrepresentations
and false statements can be immunized under the NoerrPennington doctrine.
28

Am. Rice, Inc. v. Producers Rice Mill, Inc., 518 F.3d 321, 329 (5th
Cir. 2008).
29

Wal-Mart Stores, Inc. v. Samara Bros., 529 U.S. 205, 210 (2000)
(quotations omitted).
30

Id.

App. 22
Trademarks fall into five “categories of
generally increasing distinctiveness”:31 (1) generic;
(2) descriptive; (3) suggestive; (4) arbitrary; and
(5) fanciful.32 Suggestive, arbitrary, and fanciful marks
are inherently distinctive.33 Generic marks cannot be
distinctive, and descriptive marks are distinctive only
if they have acquired a secondary meaning.34
Registration of a mark with the Patent and
Trademark Office “constitutes prima facie evidence
that the mark is valid,”35 but the presumption “may be
rebutted by establishing that the mark is not
inherently distinctive.”36 There was no dispute on
summary judgment that the “Construction Task
Catalog” mark is not inherently distinctive.37 So, CCD
overcame the presumption of validity that accompanied
Gordian’s registration of the mark.
31

Two Pesos, Inc. v. Taco Cabana, Inc., 505 U.S. 763, 768 (1992).

32

Nola Spice Designs, L.L.C. v. Haydel Enterprises, Inc., 783 F.3d
527, 537 (5th Cir. 2015).
33

Id.

34

Id.

35

Amazing Spaces, Inc. v. Metro Mini Storage, 608 F.3d 225, 237
(5th Cir. 2010).
36

Id.; see also Vison Ctr. v. Optiks, Inc., 596 F.2d 111, 119 (5th Cir.
1979) (“this presumption is rebuttable and may be overcome by
establishing the generic or descriptive nature of the mark.”).
37

On the summary judgment, CCD argued the mark was generic,
and Gordian argued it was descriptive. Neither category is
“inherently distinctive.”

App. 23
“A generic term is one which identifies a genus or
class of things or services, of which the particular item
in question is merely a member.”38 Essentially, a mark
is generic if it describes “what the product or service is,
not its source or where it came from.”39 In contrast, a
descriptive mark is one that “identifies a characteristic
or quality of an article or service, such as its color, odor,
function, dimensions, or ingredients.”40
The district court did not err in dismissing on
summary judgment Gordian’s trademark infringement
claim based on its determination that “Construction
Task Catalog” is a generic term not entitled to
trademark protection. The “Construction Task Catalog”
mark is generic because it is exactly that: a catalog of
construction tasks.41 Gordian argues the actual name
of the product is a “job order contracting unit price
book.” But, as the district court noted, a term need not
be a product’s only possible name to be generic.42

38

Union Nat. Bank of Texas, Laredo, Tex. v. Union Nat. Bank of
Texas, Austin, Tex., 909 F.2d 839, 845 (5th Cir. 1990).
39

McCarthy on Trademarks and Unfair Competition § 12:1 (4th ed.
2010).
40

Amazing Spaces, 608 F.3d at 241 (citation omitted).

41

See, eg., Blinded Veterans Ass’n v. Blinded Am. Veterans Found.,
872 F.2d 1035, 1041 (D.C. Cir. 1989) (“It is difficult to imagine
another term of reasonable conciseness and clarity by which the
public refers to former members of the armed forces who have lost
their vision.”).
42

See, eg., McCarthy § 12:9 (“There is usually no one, single and
exclusive generic name for a product. Any product may have many

App. 24
What’s more, the district court’s reasoning was
supported by record evidence that “job order
contracting unit price books” “are often referred to as
construction catalogs.”
Because the “Construction Task Catalog” mark
simply describes the nature of the product in common
industry terms, the district court did not err in
classifying it as “generic.” And because a generic term
can never be trademarked, summary judgment
dismissing Gordian’s trademark infringement claim
was appropriate.
III. CONCLUSION
Based on the foregoing, the district court’s judgment
is AFFIRMED.

generic designations”); Blinded Veterans Ass’n, 872 F.2d at 1041
(“A term need not be the sole designation of an article in order to
be generic”).

App. 25

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:16-CV-0114
[Filed: February 22, 2019]
__________________________________________
CONSTRUCTION COST DATA,
)
LLC, et al,
)
)
Plaintiffs,
)
VS.
)
)
THE GORDIAN GROUP, INC., et al,
)
)
Defendants.
)
__________________________________________)
MEMORANDUM AND ORDER
Now pending before the Court is Plaintiffs’ Rule 49
Motion for Continued Jury Deliberations or for a New
Trial, in which Plaintiffs argue that the jury verdict
contained irreconcilable conflicts. (Doc. No. 139.)
Following a seven-day trial, the jury returned a verdict
(1) without unanimous answers to each special
interrogatory (Doc. No. 137 at 30, 31, 45, 66); (2) which
disclosed its numerical division on those questions
(Doc. No. 137 at 30, 31, 45, 66); and (3) which
simultaneously found that Defendants’ conduct was
immunized and returned damages of over two million

App. 26
dollars for Plaintiffs (Doc. No. 137 at 50-57.) As
Defendants conceded that the jury verdict clearly and
unanimously rejected their counterclaim of copyright
infringement, this Memorandum and Order focuses
only on Plaintiffs’ claims. (Doc. No. 140; Doc. No. 137 at
73.)
Because the jury violated the Court’s clear
instruction to “never disclose to anyone, not even to
[the Court], [its] numerical division on any question,”
the Court denies the motion for continued jury
deliberations. (Doc. No. 137 at 30, 31, 45, 66, 87.) The
Court finds that recalling the jury to continue
deliberations on the questions that were not answered
unanimously would be unacceptably coercive to the
individual1 who cast the single contrary vote on three
questions. (Doc. No. 137 at 30, 31, 45.) This
Memorandum and Order instead considers the Motion
for New Trial.
I.

BACKGROUND

Plaintiffs Construction Cost Data, LLC, The Job
Order Contracting Group, LLC, and Managed JOC
Solutions, LLC (collectively “Plaintiffs”) filed suit in
state court against Defendants The Gordian Group,
Inc. and R.S. Means Co., LLC (“Defendants”), on
December 1, 2015, seeking relief under state law. (Doc.
No. 1-1.) Defendants removed the case to federal court
on January 15, 2016. (Doc. No. 1.) Defendants filed a
counterclaim against Plaintiffs, Mark Powell,
1

It is entirely possible that different individuals gave the singular
“no” votes on each of these questions. For ease of reference, the
Court assumes that it was same individual.

App. 27
Benjamin Stack, and All Cost Data Info, LLC
(“Third-Party Defendants”) on February 12, 2016,
seeking relief under the common law, and federal
copyright and trademark law. (Doc. No. 7.)
The Court commenced a jury trial on January 14,
2019. Plaintiffs presented to the jury claims
of (1) tortious interference with existing
contract, (2) tortious interference with prospective
business relations, (3) business disparagement,
(4) monopolization, and (5) attempted monopolization.
(Doc. No. 137 at 20-29, 37-50.) On January 23, 2019,
the jury returned a special verdict. (Doc. No. 137.) The
jury found the following facts:
1.

Defendants intentionally interfered with
Plaintiff JOC Group’s contract with
KATA Management, LLC. (Doc. No. 137
at 23.)

2.

Defendants intentionally interfered with
Plaintiff Construction Cost Data, LLC’s
contract with 4Clicks Solutions, LLC.
(Doc. No. 137 at 24.)

3.

Defendants intentionally interfered with
Plaintiff JOC Group’s contract with
TCPN. (Doc. No. 137 at 24.)

4.

Defendants wrongfully interfered with
Plaintiff JOC Group’s prospective
business relationship with KATA. (Doc.
No. 137 at 26.)

5.

Defendants wrongfully interfered with
Plaintiff Construction Cost Data, LLC’s

App. 28
prospective business relationship with
4Clicks Solutions, LLC. (Doc. No. 137 at
26.)
6.

Defendants wrongfully interfered with
Plaintiff JOC Group’s prospective
business relationship with TCPN. (Doc.
No. 137 at 27.)

7.

Defendants wrongfully interfered
with Plaintiffs’ prospective business
relationship with Region 5. (Doc. No. 137
at 27.)

8.

Defendants disparaged the business of
Plaintiffs. (Doc. No. 137 at 29.)

9.

The jury could not reach a verdict on the
question whether Defendants had a goodfaith belief that they had a valid basis to
send cease-and-desist letters regarding
their copyrighted material to KATA
Management, LLC. (Doc. No. 137 at 30.)
The jury reported that it was split eleven
to one, with the majority finding no good
faith. (Doc. No. 137 at 30.)

10.

The jury could not reach a verdict on the
question whether Defendants had a goodfaith belief that they had a valid basis to
send cease-and-desist letters regarding
their copyrighted material to 4Clicks
Solutions, LLC. (Doc. No. 137 at 31.) The
jury reported that it was split eleven to
one, with the majority finding no good
faith. (Doc. No. 137 at 31.)

App. 29
11.

The jury could not reach a verdict on the
question whether Defendants had a goodfaith belief that they had a valid basis to
send cease-and-desist letters regarding
their copyrighted material to TCPN.(Doc.
No. 137 at 31.) The jury reported that it
was split eleven to one, with the majority
finding no good faith. (Doc. No. 137 at 31.)

12.

Defendants’ pre-litigation correspondence
was not objectively baseless in the sense
that no reasonable litigant could
reasonably expect success on the merits.
(Doc. No. 137 at 36.) As instructed, the
jury did not go on to answer the second
part of Question 12, which asked if
Defendants’ subjective intent was to
interfere.

13.

The jury could not reach a verdict on the
question whether Defendants possessed
monopoly power over the job order
contracting unit price book (“JOC UPB”)
market in Texas and willfully acquired or
maintained its monopoly power in the
JOC UPB market in Texas by engaging in
anticompetitive conduct. (Doc. No. 137 at
45.) The jury reported that they were split
eleven to one, with the majority finding
monopolization. (Doc. No. 137 at 45.)

14.

Defendants engaged in predatory or
anticompetitive conduct with a specific
intent to achieve monopoly power in the
JOC UPB market in Texas, and a

App. 30
dangerous probability of achieving
monopoly power. (Doc. No. 137 at 48.)
15.

Plaintiffs’ damages, caused by certain
instances of Defendants’ tortious
interference, for the lost vendor fees for
TCPN KATA JOC Projects, lost sales for
KATA Audits, and lost sales from
4Clicks Solutions, LLC licenses totaled
$1,471,000. (Doc. No. 137 at 50-51.)

16.

Plaintiffs’ damages, caused by certain
instances of Defendants’ tortious
interference, for the lost sales from
4Clicks Solutions, LLC licenses were
$0.00. (Doc. No. 137 at 52.)

17.

Plaintiffs’ damages, caused by certain
instances of Defendants’ tortious
interference, for the lost vendor fees for
TCPN KATA JOC Projects, lost sales for
KATA Audits, and lost sales from 4Clicks
Solutions, LLC licenses were $0. (Doc. No.
137 at 52-53.)

18.

Plaintiffs’ damages, caused by certain
instances of Defendants’ tortious
interference, from lost sales from Region
5 ESC work totaled $29,000. (Doc. No.
137 at 54.)

19.

Plaintiffs’ damages from Defendants’
business disparagement was $0.00. (Doc.
No. 137 at 55-56.)

App. 31
20.

II.

Plaintiffs’ damages from Defendants’
anticompetitive conduct totaled $1.5
million. (Doc. No. 137 at 57.)
WHETHER
THE
FINDING
OF
NOERR-PENNINGTON IMMUNITY
DISPOSES OF ALL PLAINTIFFS’
CLAIMS

Plaintiffs argue that, even if the jury correctly
answered Question 12, which they dispute, that answer
is not dispositive of their claims, because evidence of
conduct beyond the cease-and-desist letters was
presented to the jury. Portions of this argument
are easily dismissed; the Court specifically changed
the phrase “cease-and-desist letters” in the
Court’s proposed jury instructions to “pre-litigation
correspondence” upon Plaintiffs’ suggestion, in order to
better capture the scope of the material they referred
to in their case, including emails to third parties like
4Clicks Solutions, LLC. Thus, the question is whether
any evidence falling outside the scope of the term “prelitigation correspondence” was presented to the jury
that may have formed the basis of their responses.
Resolving this question requires a more substantive
discussion of Noerr-Pennington immunity and its
exceptions. Plaintiffs have long maintained that
misrepresentations do not qualify for immunity under
Noerr-Pennington. The Court reiterates its position
that the Fifth Circuit has not adopted this exception.
A. NOERR-PENNINGTON IMMUNITY
Noerr-Pennington immunizes from antitrust
liability” [t]hose who petition government for redress.”

App. 32
Prof’l Real Estate Inv’rs, Inc. v. Columbia Pictures
Indus., Inc., 508 U.S. 49, 56 (1993). The doctrine is
rooted in the “First Amendment right to petition.” Id.
Courts have expanded the immunity from the antitrust
context to business tort claims, Video Int’l Prods., Inc.
v. Warner-Amex Cable Commc’ns, Inc., 858 F.2d 1075,
1084 (5th Cir. 1988), and to petitioning administrative
agencies and courts in addition to legislative branches,
Prof’l Real Estate Inv’rs, Inc., 508 U.S. at 56 (citing Cal.
Motor Trans. Co. v. Trucking Unlimited, 404 U.S. 508
(1972)). Additionally, threats of litigation “reasonably
and normally attendant upon effective litigation,”
including cease-and-desist letters, are entitled to
immunity. See Coastal States Mktg., Inc. v. Hunt, 694
F.2d 1358, 1367 (5th Cir. 1983); Source Network Sales
& Mktg., LLC v. Ningbo Desa Elec. Mfg. Co., Ltd., 2015
WL 2341063, at *8 (N.D. Tex. May 15, 2015).
The Supreme Court has explicitly recognized one
exception which removes Noerr-Pennington immunity
under the circumstances now before the Court: the
sham exception. See Prof’l Real Estate Inv’rs, Inc., 508
U.S. at 60–61. The Supreme Court has also established
a Walker-Process patent fraud exception. See Walker
Process Equip., Inc v. Food Mach. & Chem. Corp., 382
U.S. 172, 177 (1965). Although some circuits have
added a general “fraud” exception, the Fifth Circuit has
not. See e.g., Mercatus Grp., LLC v. Lake Forest Hosp.,
641 F.3d 834, 842 (7th Cir. 2011) (adopting fraud
exception).

App. 33
1. “Sham
Exception”
Pennington Immunity

to

Noerr-

The Supreme Court has carved out a “sham
exception” to Noerr-Pennington immunity. Application
of the “sham exception” involves a two-step test:
First, the lawsuit must be objectively
baseless in the sense that no reasonable litigant
could realistically expect success on the merits.
If an objective litigant could conclude that the
suit is reasonably calculated to elicit a favorable
outcome, the suit is immunized under Noerr,
and an antitrust claim premised on the sham
exception must fail. Only if challenged litigation
is objectively meritless may a court examine the
litigant’s subjective motivation. Under this
second part of our definition of sham, the court
should focus on whether the baseless lawsuit
conceals “an attempt to interfere directly
with the business relationships of a competitor,”
through the” use [of] the governmental process–
as opposed to the outcome of that process–as an
anticompetitive weapon.”
Prof’l Real Estate Inv’rs, Inc., 508 U.S. at 60–61
(citations omitted).
2. Walker-Process
Patent Fraud
Exception to Noerr-Pennington
Immunity
Courts have identified another exception to
Noerr-Pennington immunity that applies in the patent
context-the Walker-Process exception. In Walker
Process Equipment, Inc v. Food Machinery & Chemical

App. 34
Corp., the Supreme Court discussed the standard for
establishing fraudulent procurement of a patent for the
purposes of substantive antitrust violation. 382 U.S.
172, 177 (1965). The Court required that the fraud be
“knowing and willful” to form the basis of an antitrust
violation. The Federal Circuit discussed this exception
in C.R. Bard, Inc. v. M3 Sys., Inc., 157 F.3d 1340, 1360
(Fed. Cir. 1998).
Conduct prohibited under antitrust law
includes bringing suit to enforce a patent with
knowledge that the patent is invalid or not
infringed, and the litigation is conducted for
anti-competitive purposes. In such events the
antitrust immunity of Noerr–Pennington . . .does
not apply to those who seek redress through
judicial process.
Fraud in the procurement of a patent is
governed by Walker Process [as opposed to the
Professional Real Estate objective-baselessness
inquiry] and, as in PRE, the complainant “must
still prove a substantive antitrust violation.”
Id. at 1360; see also In re Relafen Antitrust Litig., 346
F. Supp. 2d 349, 365 (D. Mass. Nov. 29, 2004) (“For
Walker Process to apply, an antitrust plaintiff must
establish, by clear and convincing evidence, (1) a
misrepresentation or omission, (2) made with intent to
deceive the Patent Office, (3) on which the Patent
Office justifiably relied, and (4) but for which the
patent would not have issued.”); Rohm & Hass Co. v.
Dawson Chem. Co., Inc., 635 F. Supp. 1211 (S.D. Tex.
1986).

App. 35
Plaintiffs in this case alleged fraudulent
procurement of only a trademark and a copyright. The
Court could not find any instance of a court explicitly
expanding the Walker Process patent fraud
exception outside of the patent context. See, e.g.,
Consumerinfo.com, Inc. v. Chang, 2009 WL 10673581,
at *3 (C.D. Cal. Sept. 14, 2009). The Court thus finds
that the Walker-Process patent fraud exception is
unavailable to the Plaintiffs.
3. Fraud Exception to Noerr-Pennington
Immunity
Other circuits have discussed a general “fraud or
misrepresentation exception to the Noerr-Pennington
doctrine,” especially in contexts outside the doctrine’s
core, political speech. There is substantial variation
between the circuits, because “the Supreme Court
declined to decide ‘whether and, if so, to what extent
Noerr permits the imposition of antitrust liability for a
litigant’s fraud or other misrepresentations.’” C.R.
Bard, Inc., 157 F.3d at 1360 (citing Prof’l Real Estate
Inv’rs, Inc., 508 U.S. at 62 n.6).
Courts view this either as a second exception to
Noerr-Pennington in addition to the “sham exception,”
or as a subset of the “sham exception” providing
another method by which to prove that litigation was
a sham. See Mercatus Grp., LLC v. Lake Forest Hosp.,
641 F.3d 834, 842 (7th Cir. 2011) (“[C]ourts have
recognized two specific kinds of conduct that can
trigger the sham exception: (1) sham lawsuits; and (2)
fraudulent misrepresentations.”); Waste Mgmt. of La.,
LLC v. River Birch, Inc., 2014 WL 1329780, at *4 (E.D.
La. Mar. 31, 2014) (collecting cases).

App. 36
In Mercatus, the Seventh Circuit discussed the
“fraud exception” at length while considering whether
to adopt it.
Mercatus relies on the fraud branch of the
sham exception to Noerr–Pennington. This
exception traces its origins back to the Supreme
Court’s hint that “[t]here are many ... forms of
illegal and reprehensible practice which may
corrupt the administrative or judicial processes
and which may result in antitrust violations.
Misrepresentations, condoned in the political
arena, are not immunized when used in the
adjudicatory process.” The Court later added
that “unethical and deceptive practices can
constitute abuses of administrative or judicial
processes that may result in antitrust
violations.”
Although these statements were technically
dicta–neither California Motor Transport nor
Allied Tube involved perjury or false statements
before an adjudicative or administrative
body–there is little doubt that fraudulent
misrepresentations may render purported
petitioning activity a sham not protected from
antitrust liability.
Mercatus Grp.,641 F.3d at 842–43 (citing to cases from
the Third, Fourth, Sixth, Eleventh, and D.C. Circuits).
Unlike the Third, Fourth, Sixth, Seventh, Eleventh,
and D.C. Circuits, the Fifth Circuit has not clearly
adopted the “fraud exception,” although some district
courts appear to have done so. See e.g. Flywheel

App. 37
Fitness, LLC v. Flywheel Sports, Inc., 2013
WL12138589, at *4 (E.D. Tex. July 18, 2013) (“Thus,
any alleged misrepresentations, such as those alleged
here, are not entitled to Noerr-Pennington immunity.”),
report and recommendation never adopted due to
settlement; Pension Advisory Grp., Ltd. v. Country Life
Ins. Co., 771 F. Supp. 2d 680, 699 (S.D. Tex. 2011)
(“The law is clear that Noerr–Pennington does not
protect deliberately false or misleading statements.”
(internal quotation marks omitted)); Livingston Downs
Racing Ass’n, Inc. v. Jefferson Downs Corp., 192
F. Supp. 2d 519, 535 (M.D. La. 2001) (“Absent a more
direct statement from the Supreme Court that the
‘fraud exception’ to Noerr–Pennington immunity is no
longer viable, the Court will presume that it remains
intact.”).
The most relevant cases from the Fifth Circuit are
Woods Exploration & Producing Co. v. Aluminum Co.
of America, 438 F.2d 1286, 1298 (5th Cir. 1971), and
Bayou Fleet, Inc. v. Alexander, 234 F.3d 852, 861 (5th
Cir. 2000). Woods Exploration was decided prior to the
Supreme Court’s decision in Professional Real Estate,
and its continuing validity is uncertain. See Music
Center S.N.C. Di Luciano Pisoni & C. v. Prestini
Musical Instruments Corp, 874 F. Supp. 543 (E.D.N.Y.
1995) (recognizing Woods Exploration’s abrogation by
Professional Real Estate). Woods Exploration is likely
the closest the Fifth Circuit has ever gotten to
recognizing the “fraud exception.” The court found
Noerr-Pennington immunity inapplicable “to the
alleged filing of false nominations by defendants
because this conduct was not action designed to
influence policy, which is all the Noerr-Pennington rule

App. 38
seeks to protect. In light of this determination we hold
that the abuse of the administrative process here
alleged does not justify antitrust immunity.” Woods
Exploration, 438 F.2d at 1298. These statements do not
distinguish this exception from the sham exception.
Woods Exploration’s formulation of the standard is
thus likely inapplicable post-Professional Real Estate,
which established the test for sham litigation.
Bayou Fleet, Inc., decided shortly after Professional
Real Estate, supports the conclusion that Woods
Exploration does not set out a distinct “fraud exception”
to Noerr-Pennington. In dicta, the Fifth Circuit stated
that the Supreme Court “has allowed only one
exception to the Noerr-Pennington doctrine–the ‘sham’
exception.” Bayou Fleet, 234 F.3d at 861. The court
then went on to state that the standard for the “sham
exception” is whether the allegedly anticompetitive
activities were objectively baseless. Id. The court
ultimately rejected a request to “create a new exception
to the Noerr-Pennington doctrine” for retaliatory
conduct. Id.
As noted above, some district courts in this circuit
have referenced the fraud exception. Some of these
courts appear to be referencing the Walker-Process
exception–which does not apply in this case. Pension
Advisory Group specifically dealt with misleading
statements in the context of a patent application to the
U.S. Patent and Trademark Office (“USPTO”). 771
F. Supp. 2d 680, 699 (S.D. Tex. 2011) (“The law is clear
that Noerr–Pennington does not protect deliberately
false or misleading statements [in a patent application
to the USPTO].” (internal quotation marks omitted))).

App. 39
Flywheel considered the application of NoerrPennington immunity to claims between companies of
fraud and conspiracy to defraud. Flywheel Fitness, LLC
v. Flywheel Sports, Inc., 2013 WL12138589, at *4 (E.D.
Tex. July 18, 2013), report and recommendation never
adopted due to settlement. The case quotes
authoritatively Pension Advisory Group’s statement
that “[t]he law is clear that Noerr-Pennington does not
protect deliberately false or misleading statements.”
Although this is a significant expansion of Walker
Process outside the patent context, the Court made no
mention of it and did not appear aware that Flywheel
discussed an exception specific to the patent context.
The Court therefore does not find this case persuasive.
The only district court case from within the Fifth
Circuit the Court found that was referencing the fraud
exception relevant to this case, not the Walker Process
exception, appears to have construed Woods
Exploration differently than this Court does above.
Livingston Downs Racing Ass’n Inc. v. Jefferson Downs
Corp., 192 F. Supp. 2d 519, 535 (M.D. La. 2001)
(“Absent a more direct statement from the Supreme
Court that the ‘fraud exception’ to Noerr–Pennington
immunity is no longer viable, the Court will presume
that it remains intact.”). This court started with the
assumption that, prior to Professional Real Estate,
there existed a “fraud exception” to the application of
Noerr-Pennington immunity. Id. It based this belief in
part on dicta in earlier Supreme Court cases and in
part in Woods Exploration. Id. The court then decided
that Professional Real Estate did not state it was
eliminating the “fraud exception” with sufficient
specificity, so the court would assume it continued to

App. 40
apply. Id. For the reasons discussed in the summary of
Woods Exploration, the Court believes this argument
began from a faulty assumption that the “fraud
exception” clearly existed in the Fifth Circuit prior to
Professional Real Estate.
Thus, the Court finds that the “fraud exception” as
distinct from the “sham exception” does not exist in the
Fifth Circuit, and that any allegations of
misrepresentation must be fit into the Professional
Real Estate inquiry. Any argument by Plaintiffs that
Question 12 would not immunize “misrepresentations”
is rejected.
B. ANALYSIS
Plaintiffs claim that the additional evidence
presented that fell outside the scope of NoerrPennington immunity included:
[B]uying out competition, bullying vendors
(such [as] the email threat from Defendants to
Michael Brown of 4Clicks Solutions, LLC, which
was Exhibit P-115), raising prices without fear
of consequence (Exhibit P-143), shutting off
avenues to other markets, withholding business,
excluding competition, prior threats against
Mark Powell, threatening phone calls and
warnings, and the general ongoing
disparagement of Plaintiffs through avenues
other than the cease and desist letters.
(Doc. No. 139 at 18.)
Plaintiffs’ theme throughout the trial was that the
Defendants’ business strategy was to “bully or buy”

App. 41
competitors. However, the critical evidence they
presented depicted Defendants’ bullying as grounded in
threats of litigation–in emails, phone calls, and
cease-and-desist letters. The two exhibits Plaintiffs cite
in their brief are Plaintiffs’ Exhibits 115 and 143. The
Court will address each of these exhibits in turn.
1. Plaintiffs’ Exhibit 115
Plaintiffs’ Exhibit 115 is an email from Defendant
The Gordian Group’s CEO William Pollak to Michael
Brown of 4Clicks Solutions, LLC. As Plaintiffs suggest,
the email threatens Michael Brown based on his
involvement with Plaintiffs. However, these threats
were consistently rooted in the allegations of copyright
and trademark infringement.
Michael,
At this point I’m sure you are aware that we have
taken steps to protect the copyrights and trademarks
we hold on R.S. Means Construction Cost Data to
ensure that none of our proprietary data is used by
third parties without our express approval. We take
this matter extremely seriously and are prepared to
defend our business interests as necessary.
Given our past discussions, I am particularly
disappointed in your involvement with Mark Powell
and his associates. Through our recent RS Means
licensing agreement with 4Clicks and the
discussions we have held regarding a license for
Gordian CTC data, I had thought that 4Clicks could
be a valued partner for The Gordian Group in
mutually building our businesses going forward.
That you have taken such a prominent role in

App. 42
promoting an alternative product–particularly one
built on data which we believe to have been
misappropriated–would seem to indicate otherwise.
I have instructed my colleagues to cease any
discussions with 4Clicks regarding a license to
Gordian CTC data. And I have asked our attorneys
to review the licensing agreement between The
Gordian Group and 4Clicks covering RS Means
data to see if there has been any violation of its
terms.
If you would like to discuss this matter, let me
know.
Bill
(Plaintiffs’ Exhibit 115 (emphasis added).) This email
specifically references the threatened litigation in its
first sentence, and then continues to ground its threats
in the alleged copyright infringement. At trial, Mr.
Pollak testified that the first line of the final
paragraph, stating that he stopped discussions about
another lease with 4Clicks Solutions, LLC, was also
related to the threatened litigation: “we should stop
talking about that while we resolve this other matter.”
Thus, the Court concludes that it qualifies as
“pre-litigation correspondence.”
2. Plaintiffs’ Exhibit 143
Plaintiffs’ Exhibit 143 is an email from Michael
Brown of 4Clicks Solutions, LLC to representatives of
Defendant The Gordian Group. It is reproduced in
relevant part below.

App. 43
Here are examples of the pricing impacts to our
clients.
The removal of discounts for concurrent users,
removal of the static RSMeans Assemblies product
and our bundled pricing that we offered to our
clients.
For years we’ve had a lot of success selling users the
static RS Means Assemblies with no component
database.
We’ve also bundled this well with the Assemblies,
Facilities and Master Composite.
Example is we offered this bundle for $3000 [and] it
will now cost $6063 ($1650+$2195+$2218). It will be
a challenge for our current clients and as we acquire
new clients with up sale opportunities.
(Plaintiffs’ Exhibit 143.) This exhibit provides evidence
that Defendants raised the prices of their products and
is unrelated to the threatened litigation against
Plaintiffs. Therefore, it falls outside the scope of
“pre-litigation correspondence.”
Further, Noerr-Pennington immunity in this context
only protects conduct that can be classified as
“reasonably and normally attendant upon effective
litigation.” Coastal States Mktg., Inc. v. Hunt, 694 F.2d
1358, 1367 (5th Cir. 1983). It does not extend to
anticompetitive conduct that does not relate to the
threatened litigation, like raising prices or buying out
competitors.

App. 44
Evidence that Defendants raised prices was
relevant to Plaintiffs’ monopoly claim. As described in
the jury instructions, monopoly claims require proof of
(1) possession of monopoly power and (2) willfully
acquiring or maintaining the monopoly power by
engaging in anticompetitive conduct. (Doc. No. 137 at
36.) The jury was also instructed that possession of
monopoly power may be proven by showing that
Defendants had the ability to control prices in the
market.2 (Doc. No. 137 at 37-39.) Importantly, the
instructions provided that evidence that Defendants
raised prices was insufficient to make out a monopoly
claim.

2

In the past, the Fifth Circuit has directed courts to proceed
cautiously when a plaintiff uses evidence of price increases to
prove possession of monopoly power.
Transitory control over prices, ever present in a competitive
economy–in large part due to lags in the responses of other
buyers or producers–is not the subject of the completed
monopolization offense. For this reason, [commentators]
conclude that evidence of actual control over prices–conduct
evidence–is inherently weak,
giving no reliable clue to the degree of market power that
the actor possesses, and he may even have none.
Relatively slight economic advantages are typically worth
the legal or other costs of protecting them…. Conduct, in
short, will rarely if ever establish substantial market
power. Where power is relevant to an antitrust defense,
conduct can be taken as sufficient proof only where the
power requirement itself is highly attenuated.
Dimmitt Agri Indus., Inc. v. CPC Int’l, Inc., 679 F.2d 516, 530 (5th
Cir. 1982). Because the jury may also have credited Plaintiffs’
assertions that Defendants had no competitors in the relevant
market, the Court continues its analysis.

App. 45
As a general rule, businesses are free to
choose the parties with whom they will deal, as
well as the prices, terms, and conditions of that
dealing. Anticompetitive conduct must represent
something more than the conduct of business
that is part of the normal competitive process or
commercial success. Anticompetitive conduct
must represent conduct that has made it very
difficult or impossible for competitors to compete
and that was taken for no legitimate business
reason.
(Doc. No. 137 at 44.)
The jury may have considered Exhibit 143 evidence
that Defendants possessed monopoly power, but–
without the evidence of immunized conduct–there was
insufficient evidence of anticompetitive conduct.
Exhibit 143 alone does not constitute evidence of
anticompetitive conduct–if anything, the increase in
prices would have made it easier for competitors to
compete. See Verizon Commc’ns Inc. v. Law Offices of
Curtis V. Trinko, LLP, 540 U.S. 398, 407 (2004) (“To
safeguard the incentive to innovate, the possession of
monopoly power will not be found unlawful unless itis
accompanied by an element of anticompetitive
conduct.”); Taylor Publ’g Co. Jostens, Inc., 36 F. Supp.
2d 360, 369 (E.D. Tex. 1999), aff’d, 216 F.3d 465 (5th
Cir. 2000) (“[N]o reasonable jury could have found that
the evidence supported a finding of anticompetitive
conduct based on predatory pricing.”); Coca-Cola Co. v.
Harmar Bottling Co., 218 S.W.3d 671, 690 (Tex. 2006).
Therefore, Exhibit 143 alone could not have formed the
basis of a jury finding on Plaintiffs’ monopoly claim.

App. 46
Similarly, power to control prices is relevant to
Plaintiffs’ attempted monopoly claim. The jury was
instructed that to succeed on their claim of attempted
monopoly, Plaintiffs must (1) engage in anticompetitive
conduct (2) with the specific intent to achieve monopoly
power and (3) with a dangerous probability of achieving
monopoly power. (Doc. No. 137 at 48.) Once again,
Exhibit 143 cannot alone establish anticompetitive
conduct. See Taylor Publ’g Co., 36 F. Supp. 2d at 372.
3. Other Evidence of Anticompetitive
Conduct
As noted above, Exhibit 143 may have formed the
basis of the jury’s finding of monopoly power. The
Court now searches the record for evidence of
anticompetitive conduct that was not immunized. After
a review of the trial transcripts, the Court identifies
Plaintiffs’ evidence of anticompetitive conduct as:
(1) cease-and-desist letters sent by Defendants to
Plaintiffs and their business contacts; (2) Defendants’
emails to Plaintiffs’ business contacts regarding the
suspected plagiarism; (3) telephone calls between
Plaintiffs’ business contact and Defendants;
(4) Defendants’ purchase of R.S. Means, which may or
may not have been a competitor; (5) Defendants’
purchase of 4Clicks Solutions, LLC; and (6) unspecified
threats made by Defendant The Gordian Group to
Mark Powell prior to Powell’s founding of Construction
Cost Data.
The cease-and-desist letters, emails, and phone calls
are all subsumed within the term “pre-litigation
correspondence,” and are all entitled to immunity. The
purchase of 4Clicks Solutions, LLC was not

App. 47
anticompetitive, because 4Clicks Solutions, LLC was
not a competitor in the JOC UPB market. It licensed
Defendants’ data and hosted a program that enabled
companies to use the data sets in making their bids on
construction projects.
Plaintiffs also mentioned threats made by
Defendant The Gordian Group to Mark Powell while he
was working with a third party. Powell testified that
The Gordian Group sent him a threatening letter while
he was doing estimating work for a third party on a bid
for the Department of Homeland Security. No evidence
was presented that the third party was a competitor of
The Gordian Group in Texas, or that Powell’s estimates
were part of a JOC UPB. In other words, no evidence
was presented that this alleged anticompetitive
conduct occurred in the relevant market.
Thus, the only remaining evidence of
anticompetitive conduct that was not subject to
immunity was Defendants’ purchase of R.S. Means.
Although Plaintiffs claimed throughout the trial that
R.S. Means was a “competitor,” they never disputed
Defendants’ evidence that, before its purchase by The
Gordian Group, R.S. Means was focused on
construction cost estimating–not on creating JOC
UPBs. The Court defined the relevant product market–
at Plaintiffs’ urging–as JOC UPBs. Plaintiffs spent a
great deal of time during Mr. Stack’s testimony at trial
drawing out the specific differences between
construction cost estimating and JOC UPBs. Plaintiffs
emphasized that creators of construction cost
estimating books are not competitors in the JOC UPB
market. This distinction was critical to Plaintiffs’ case,

App. 48
because Defendants had offered numerous examples of
construction cost estimating competitors, which would
have precluded a finding that Defendants possessed
monopoly power. Plaintiffs cannot claim construction
cost estimators are not competitors for the purpose of
determining market power, while maintaining that
they are competitors for the purposes of determining
anticompetitive conduct. Therefore, this evidence
cannot support Plaintiffs’ monopoly claims.
Further, a single instance of purchase of a
competitor is not sufficient evidence to prove
anticompetitive conduct, especially where, as here, the
products or services offered by the two companies are
not identical. No evidence was presented to establish
that the purchase of R.S. Means lacked a rational
business purpose or was against The Gordian Group’s
normal economic interest. See Stearns Airport Equip.
Co., Inc. v. FMC Corp., 170 F.3d 518, 523 (5th Cir.
1999); Great W. Directories v. Sw. Bell Tel. Co., 63 F.3d
1378, 1386 (5th Cir. 1995), modified on other grounds,
74 F.3d 613 (5th Cir. 1996). Mr. Pollak testified that
the purchase of R.S. Means and 4Clicks were both done
to diversify The Gordian Group. Thus, even if the jury
had found for Plaintiffs on their monopoly claims
without relying on evidence of immunized conduct, the
Court would have had to grant Defendants’ motion for
judgment as a matter of law on Plaintiffs’
monopolization claims. Question 12 is therefore
dispositive of all Plaintiffs’ claims.

App. 49
III.

WHETHER THE JURY’S RESPONSE
TO QUESTION 12 IRRECONCILABLY
CONFLICTS WITH THE REST OF THE
VERDICT

The aberration in the verdict, according to
Plaintiffs, is Question 12, which found that Defendants
were entitled to immunity under the Noerr-Pennington
doctrine. It is undisputed that the jury failed to follow
the Court’s instruction to find against Plaintiffs if the
jury found that the pre-litigation correspondence was
not objectively baseless. (Doc. No. 137at 33 (“If you find
that the Gordian Parties’ threatened suit was not
objectively baseless, . . . you must find for the Gordian
Parties and against Plaintiffs on Plaintiffs[’] charges
that the Gordian Parties violated the laws by
threatening a lawsuit.”).) Instead, it proceeded to
award damages to Plaintiffs. (Doc. No. 137 at 50-57.)
A. LEGAL STANDARD
Both the Supreme Court and the Fifth Circuit urge
courts to attempt to reconcile any inconsistencies with
a jury’s interrogatory answers. The Seventh
Amendment requires courts to “attempt to harmonize
the answers, if it is possible under a fair reading of
them.” Gallick v. Balt. & Oh. R.R. Co., 372 U.S. 108,
119 (1963); White v. Grinfas, 809 F.2d 1157, 1161 (5th
Cir. 1987) (“When the jury’s answers appear to conflict,
we are obliged to reconcile the answers, if possible, in
order to validate the jury’s verdict. Indeed, this effort
is required by the Seventh Amendment.” (internal
citations omitted)).

App. 50
Inconsistencies may be reconciled without a new
trial when “the answers may fairly be said to represent
a logical and probable decision on the relevant issues
as submitted, even though the form of the issue or
alternative selective answers prescribed by the judge
may have been the likely cause of the difficulty and
largely produced the apparent conflict.” Griffin v.
Matherne, 471 F.2d 911, 915 (5th Cir. 1973). In
contrast, the Fifth Circuit will reverse a district court’s
decision not to retry the case when “there is no view of
the case which makes the jury’s answers consistent and
[]the inconsistency is such that the special verdict will
support neither the judgment entered below nor any
other judgment.” Id.
In crafting jury instructions, courts must consider
a range of possible outcomes. Each question a jury
answers may necessitate certain follow-up questions
and make other questions superfluous. For example, in
a negligence case, a finding that the defendant was not
negligent would make a question about damages
irrelevant. Conversely, a finding that the defendant
was negligent might require an additional question
apportioning responsibility between the parties.
Because the court cannot know how the jury will
answer these questions in advance, it must submit to
the jury all interrogatories that could be implicated by
their responses, including some questions that certain
responses will render superfluous.
Apparent conflicts often arise when a jury answers
a superfluous question in violation of the court’s
instructions. In such circumstances, the Fifth Circuit
instructs courts that “[i]f the jury’s answer to a

App. 51
question that was supposed to pretermit further
inquiry is clear and disposes of the legal issues, we
must ignore the jury’s conflicting answers to any other
questions, as they are irrelevant.” Nat’l Hispanic
Circus, Inc. v. Rex Trucking, Inc., 414 F.3d 546, 551
(5th Cir. 2005); see also White, 809 F.2d at 1161 (“[I]f
the district court has correctly found that the jury’s
answer to a question that was supposed to terminate
further inquiry is clear and disposes of the legal issues,
on review we must ignore the jury’s necessarily
conflicting answers to any other questions.”); Willard
v. John Hayward, 577 F.2d 1009, 1011 (5th Cir. 1978)
(“Even a jury verdict inconsistent on its face is not
inconsistent if it can be explained by assuming the jury
reasonably misunderstood the instructions.”).
B. ANALYSIS
Plaintiffs argue that the response to Question 12
conflicts with the response to virtually every other
question submitted to the jury. (Doc. No. 142 at 13.)
This section will therefore analyze the potential conflict
between Question 12 and each of the other responses.
1. Questions 1-8, 13-14
Plaintiffs claim that Question 12 conflicts with the
findings that they had proven the elements of each of
their claims. Questions 1-3 found that Defendants had
intentionally interfered with certain of Plaintiffs’
contracts. (Doc. No. 137 at 23-24.) Questions 4-7 found
that Defendants had intentionally interfered with
certain of Plaintiffs’ prospective business relationships.
(Doc. No. 137 at 26-27.) Question 8 found that
Defendants had disparaged Plaintiffs’ business. (Doc.

App. 52
No. 137 at 29.) Question 13 found that Defendants had
unlawfully monopolized the relevant market.3 (Doc. No.
137 at 45.) Question 14 found that Defendants had
unlawfully attempted to monopolize the relevant
market. (Doc. No. 137 at 48.)
The Court finds Plaintiffs’ argument inconsistent
with the nature of an affirmative defense. There is
nothing irreconcilable about finding the elements of, for
example, business disparagement, and also finding
that the elements of an affirmative defense were met.
See e.g., Charles Arthur Wright & Arthur R. Miller, 5
Federal Practice and Procedure § 1270 (3d ed. 2018)
(“Rule 8(c) is a lineal descendent of the common law
plea by way of ‘confession and avoidance,’ which
permitted a defendant who was willing to admit that
the plaintiff’s declaration demonstrated a prima facie
case to then go on and allege additional new material
that would defeat the plaintiff’s otherwise valid cause
of action.”). The Court submitted to the jury a special
verdict, not a general verdict, so there was no general
response from the jury for or against each of Plaintiffs’
claims. Thus, there was no point at which the jury was
asked to reconcile its findings on the elements of
Plaintiffs’ claims and its finding on Defendants’
affirmative defenses to those claims. The Court finds
no conflict between Question 12 and Questions 1-8 and
13-14.

3

This response was not unanimous, and thus does not constitute
an actual finding by the jury. See Fed. R. Civ. P. 48; see also Fox v.
United States, 417 F.2d 84, 89 (5th Cir. 1969). The Court will
discuss the response as if it were a finding for the purposes of
addressing Plaintiffs’ argument.

App. 53
2. Questions 9-11
Plaintiffs argue that Question 12 directly
contradicts the jury’s findings in Questions 9-11 that
the Defendants did not have a good-faith basis for
sending the cease-and-desist letters that formed the
basis of Plaintiffs’ claims. (Doc. No. 139 at 12.) First,
the Court notes that there can be no conflict between
these responses and Question 12, because the
responses to Questions 9-11 were not unanimous and
thus were not findings at all. See Fed. R. Civ. P. 48
(requiring that verdicts be unanimous); see also Fox v.
United States, 417 F.2d 84, 89 (5th Cir. 1969) (“Unless
otherwise stipulated, the verdict in a civil case must be
the unanimous verdict of twelve jurors. Likewise, the
verdict in a criminal case must be unanimous or it
constitutes no verdict at all.” (internal citations
omitted).)
Second, there would be no conflict even if the jury
unanimously found that Defendants had no good-faith
basis for sending the cease-and-desist letters. The
affirmative defense of good faith places the burden of
persuasion on Defendants and uses a subjective
standard. The affirmative defense of Noerr-Pennington
immunity, on the other hand, applies unless the
Plaintiffs prove that the threatened litigation was
objectively baseless (the “sham exception”). The second,
subjective prong of the “sham exception” test is only
considered after a finding of objective baselessness. See
Prof’l Real Estate Inv’rs, Inc. v. Columbia Pictures
Indus., Inc., 508 U.S. 49, 61 (1993) (“This two-tiered
process requires the plaintiff to disprove the challenged
lawsuit’s legal viability before the court will entertain

App. 54
evidence of the suit’s economic viability.”); Bryant v.
Military Dep’t of Miss., 597 F.3d 678, 690 (5th Cir.
2010) (“The plaintiff bears the burden to disprove the
challenged lawsuit’s legal viability before subjective
intent can be considered.”). Indeed, the mere fact that
the test for the “sham exception” has both objective and
subjective prongs is evidence that a finding that a
lawsuit was threatened in bad faith is not dispositive
of whether that lawsuit was objectively baseless. Thus,
the Court rejects Plaintiffs’ argument that Question 12
conflicts with Questions 9-11.
3. Question 12
Plaintiffs additionally argue that in answering “no”
to the question of whether the pre-litigation
correspondence was “objectively baseless,” the jury was
actually answering “no” to an entirely different
question–whether the pre-litigation correspondence
“had an objective basis.” (Doc. No. 139 at 15.) Plaintiffs
hypothesize that the jury misread Question 12 because
it was given immediately after Questions 9-11 on good
faith. (Doc. No. 139 at 15.)
This is a bridge too far. The Court’s job is to
“harmonize” the jury’s verdict, not to rewrite it. Gallick
v. Balt. & Oh. R.R. Co., 372 U.S. 108, 119 (1963). The
instruction on Noerr-Pennington immunity was
detailed and relatively long, over three pages. (Doc. No.
137 at 30-33.) It hewed closely to the ABA Model Jury
Instructions on Civil Antitrust Cases and contained a
specific explanation of objective baselessness. (Doc. No.
137 at 33.) The jury demonstrated that it understood
other portions of the instruction stating that it did not
have to proceed to the second step of Question 12, if it

App. 55
did not find the threatened litigation “objectively
baseless.” (Doc. No. 137 at 35.) Further, the jury could
not unanimously answer the questions on good faith,
which appear analogous to what Plaintiffs argue the
jury misunderstood Question 12 to be asking. In
contrast, the answer to Question 12 was unanimous. If
the jury truly believed that Question 12 was identical
to Questions 9-11, the Court would expect the jury’s
eleven-to-one split to be recreated in Question 12.
For these reasons, the Court refuses to impeach the
jury’s clear and unanimous response on Question 12.
See Carr v. Wal-Mart Stores, 312 F.3d 667, 673-74 (5th
Cir. 2002) (reversing a district court’s decision to credit
a later question entered against the court’s
instructions, instead of the clear response of the jury to
an earlier question that rendered the later question
superfluous).
4. Questions 15-20
Plaintiffs assert that the jury’s damages findings in
Questions 15-20 are further evidence that the jury
intended to rule for the Plaintiffs, and that those
findings are thus inconsistent with Question 12. (Doc.
No. 142 at 13.) Plaintiffs are correct that, by finding
damages, the jury failed to follow the Court’s
instruction to find against the Plaintiffs if it found that
Noerr-Pennington immunity applied in Question 12.
(Doc. No. 137 at 34.) Further, the instructions
specifically listed the claims to which this immunity
would apply, which include all Plaintiffs’ claims for
relief. (Doc. No. 137 at 36.) Thus, the Court must
analyze whether the apparent conflict is reconcilable.
Several cases prove instructive.

App. 56
In Gallick v. Baltimore & Ohio Railroad Co., the
Supreme Court considered the claims of a railroad
worker who was bitten by an insect while working on
the railroad’s line near by a pool of fetid water teeming
with insects and vermin. 372 U.S. 108 (1963). The
insect bite became infected and eventually necessitated
amputation of the plaintiff’s legs. Id. at 109-110. Under
federal law, the railroad was liable for injury or death
resulting from its negligence. Id. at 110. The defendant
argued that the injury was not foreseeable. Id. The
district court submitted to the jury a special verdict
form. Id. The jury found for the plaintiff on almost
every question except on foreseeability. Id. at 110-111.
The jury specifically found for plaintiff on questions of
proximate cause and negligence. Id. at 111.
On appeal, the Supreme Court found that the
verdict was not inconsistent. Id. at 120. Because the
concept of negligence includes a finding of
foreseeability, the jury’s answer finding no
foreseeability may have meant that only the severity of
the harm was not foreseeable– which does not preclude
a plaintiff’s recovery under well-established tort law.
Id. at 120-121. The Court reviewed the inconsistent
question in the context of the charge and of the special
verdict as a whole, and found that it was not
sufficiently inconsistent to overturn the judgment of
the trial court, which was entered for plaintiff pursuant
to the special verdict. Id. at 120.
Similarly, the Fifth Circuit in National Hispanic
Circus, Inc. v. Rex Trucking, Inc., refused to order a
new trial despite alleged inconsistencies in the jury’s
verdict. 414 F.3d 546, 551 (5th Cir. 2005). In National

App. 57
Hispanic Circus, a shipping company (defendant) lost
the circus’s custom-made bleachers while transporting
them across the country. Id. at 548. The circus sued for
the cost of replacement custom bleachers. Id. at 548-49.
A federal statute allowed the circus to recover damages
from the carrier for actual loss of property, if the loss
was reasonably foreseeable. Id. The charge instructed
the jury that, if it found the damages were not
reasonably foreseeable, it should proceed to consider
whether the defendant had actual notice of the circus’s
potential damages, which might provide an alternative
basis for liability. Id. at 550. The jury returned a
verdict finding that the circus’s damages were
reasonably foreseeable. Id. at 551. In violation of the
instructions, the jury proceeded to find that the
defendant had actual notice. Id. The defendant argued
that there was no evidence in the record to support a
finding of actual notice, and that therefore “the jury’s
verdict may have rested on a theory that lacked
adequate support in the record.” Id. The Fifth Circuit
reconciled the allegedly inconsistent verdict as follows:
Even if the jury’s answers were
inconsistent,– a highly implausible contention–a
new trial still was not required if the verdict can
be explained by assuming that the jury
misunderstood the question. If the jury’s answer
to a question that was supposed to pretermit
further inquiry is clear and disposes of the legal
issues, we must ignore the jury’s conflicting
answers to any other questions, as they are
irrelevant. As the jury’s answer to the second
question [on actual damages] was superfluous to
its finding that Mason could reasonably have

App. 58
foreseen the damages to the Circus, Mason is
not entitled to a new trial or a judgment as a
matter of law.
Id. at 551 (emphasis added).
In an earlier case, the Fifth Circuit also reconciled
apparent inconsistencies in the jury’s verdict. White v.
Grinfas, 809 F.2d 1157, 1161 (5th Cir. 1987). In
White, purchasers of an apartment complex filed
counterclaims against the seller, alleging a breach of
implied warranties and fraud. Id. at 1158. Specifically,
they claimed that the sellers knew that the foundation
of the apartment complex was structurally defective.
Id. A prior settlement agreement between the parties
was at issue in addition to the actual sale of the
apartment complex. Id.
On appeal, the buyers complained that the jury
verdict returned was irreconcilable in finding
simultaneously that (1) the sellers did not know about
the structural defects at the time the parties entered
into the settlement (Question 3), (2) that the sellers
failed to disclose the structural defects with the
intention of inducing the buyers to enter into the
settlement (Question 5); and (3) that the sellers failure
to disclose the structural defects with the intention of
inducing the buyers to purchase the apartment
complex (Question 14). Id. at 1162-64. The instructions
included a direction from the trial court not to answer
any further questions if it found that the sellers were
unaware of the structural defects before settlement
was executed (Question 3). Id. at 1161.

App. 59
The Fifth Circuit noted that the problems with the
verdict were “caused by the jury’s failure to follow the
court’s instructions.” The court noted an apparent
conflict between Question 3 and all other questions,
“[b]ecause all the questions subsequent to question 3
were predicated on an affirmative response to that
question.” Id. The court reconciled the verdict by
ignoring the responses the jury submitted in violation
of the trial court’s instructions.
To effectuate best the intent of the jury, we
hold that if the district court has correctly found
that the jury’s answer to a question that was
supposed to terminate further inquiry is clear
and disposes of the legal issues, on review we
must ignore the jury’s necessarily conflicting
answers to any other questions. The subsequent
questions are by definition irrelevant in these
circumstances, and cannot be used to impeach
the jury’s clear verdict.
Here the jury found in response to question
3 that the [sellers] were unaware of any
structural defects at the time of the settlement
agreement. A fortiori, lacking scienter, the
[sellers] could not have fraudulently induced the
[purchasers] to enter into the [settlement]
Agreement. Consequently, the Agreement
barred assertion of the counterclaims as a
matter of law, and the jury’s answers to the
questions following question 3 cannot be used to
cast doubt upon the jury’s clear verdict.
Id.

App. 60
The above cases do not stand for the proposition
that there are no limits to the district court’s ability to
reconcile inconsistencies in jury verdicts. In Carr v.
Wal-Mart Stores, Inc., the Fifth Circuit found that the
district court overstepped the bounds of its discretion
to reconcile inconsistent findings. 312 F.3d 667, 673
(5th Cir. 2002). The plaintiff in Carr brought a tort suit
against the defendant for an injury sustained at its
store. Id. at 669. The jury in Carr first found that the
defendant was not negligent in causing the accident.
Id. The jury then proceeded to the next question, in
violation of the trial court’s instruction, and found that
the defendant’s negligence had not caused injury to the
plaintiff. Id. The magistrate judge presiding over the
trial found that the jury’s finding that the defendant
was not negligent was “contrary to the great weight of
the evidence,” but did not order a new trial. Id. Instead,
the judge used the jury’s– improper–unanimous finding
of lack of causation to argue that no retrial was
necessary, because any error was harmless. Id.
The Fifth Circuit found that the magistrate judge
had improperly relied upon the second response, which
was answered in violation of the court’s instructions.
Id. at 674. Throughout its discussion in Carr, the Fifth
Circuit reiterates the instructions given in the cases
discussed above: “We have concluded that a district
court does not abuse its discretion in reconciling
verdicts containing answers to interrogatories that the
jury was instructed not to answer, when it either
disregards the superfluous answers in their entirety, or
resubmits the interrogatories to the jury.” Id. (citing
Richard v. Firestone Tire & Rubber Co., 853 F.2d 1258,
1260 (5th Cir. 1988) (“Thus, in White we recognized the

App. 61
broad discretion the district court enjoys to refuse to
consider interrogatories answered in violation of the
court’s instructions.”); Knowlton v. Greenwood Ind.
Sch. Dist., 957 F.2d 1172, 1179 (5th Cir. 1992) (“We
will not allow a puzzling answer to an irrelevant
question to impeach the jury’s clear verdict.”); Floyd v.
Laws, 929 F.2d 1390, 1397 (9th Cir. 1991) (“[S]pecial
findings issued in violation of the trial court’s express
instructions do not constitute legitimate or viable
findings of fact. The trial court must therefore dismiss
them as surplusage, as a matter of law.”)).
Here, the apparent conflict is between Question 12
and Questions 15-20. The jury’s responses to Questions
15-20 were answered in violation of the Court’s
instruction that the jury should find for Plaintiffs if it
did not find that the threatened litigation was
objectively baseless. (Doc. No. 137 at 33.) Thus, the
Court finds that the relevant precedent instructs it to
disregard the responses to Questions 15-20.
Plaintiffs attempt to differentiate this case from the
Fifth Circuit cases discussed above. (Doc. No. 142 at 9.)
Plaintiffs argue that in the above-quoted cases, the
court’s instructions were more explicit that the jury
was not to proceed to other questions. Plaintiffs are
correct that the instruction accompanying Question 12
did not specifically direct the jury to not answer
Questions 15-20. The instruction was admittedly better
suited to a general verdict with special interrogatories
than the special verdict submitted to the jury here, as
it directed the jury to “find for the [Defendants] and
against Plaintiffs.” (Doc. No. 137 at 33.) While this
ambiguity makes it more understandable that the jury

App. 62
answered the superfluous questions, it does not disturb
the rationale of the cases discussed above. The jury’s
response to Question 12 was clear and disposed of all
Plaintiffs’ claims.
Plaintiffs additionally cite several cases that hold
allegedly inconsistent verdicts irreconcilable and imply
that a new trial is required. In Dawson v. General
Motors Corp., the Fifth Circuit, without discussion,
reversed and remanded a district court’s reconciliation
of a jury finding that the plaintiff was not “causally
negligent” with a finding that she was “5% causally
responsible for her injuries.” 1995 WL 17788765, at *1
(5th Cir. 1995) (unpublished).4 In Team Contractors,
L.L.C. v. Waypoint NOLA, L.L.C., a district court cited
Dawson while holding that it could not reconcile jury
findings that there was no breach of contract and that
defendant was responsible for damages. 2018 WL
4252553, at *5 (E.D. La. Sept. 6, 2018).
These cases are inapposite, because the juries came
to contrary conclusions on the same underlying fact,
indicating that they were confused “about the case”
itself. Id. at *5 n.68. The court in Team Contractors
itself makes this distinction, differentiating its case
from Smith v. Tidewater Marine Towing, Inc., 927 F.2d
838 (5th Cir. 1991), in which “the jury found a
defendant in a maritime personal injury case not
negligent, but misunderstood the verdict form and
erroneously continued answering questions about

4

Although this case is unpublished, it is precedent. See Fifth Cir.
R. 47.5.3 (“Unpublished opinions issued before January 1, 1996,
are precedent.”).

App. 63
damages.” Team Contractors, 2018 WL 4252553, at *5
n.68. The Team Contractors court noted that “[i]n
Smith, the jury’s answers reflected a consistent theory
of the case: the defendant was not negligent, but the
plaintiff did suffer injuries from two accidents.”
It is even clearer in this case that the jury’s answers
reflect a consistent theory of the case: Defendants
wrongfully interfered with Plaintiffs’ business
relationships, disparaged Plaintiffs’ business, and
wrongfully attempted to monopolize the market,
causing real damage to Plaintiffs to the tune of over
two million dollars. However, this wrongful conduct
was immunized under the Noerr-Pennington doctrine.
Affirmative defenses do not discount that damage was
done, but only preclude legal recovery. The evidence
that the jury “misunderstood the verdict form” does not
displace the verdict. Team Contractors, 2018 WL
4252553, at *5 n.68.
IV.

SUFFICIENCY OF TIME TO REVIEW
PROPOSED INSTRUCTIONS

Plaintiffs also seek to challenge the sufficiency of
the time their counsel were given to review the jury
instructions. A brief review of pertinent facts is in
order. Even though the case was almost three years
old, it was apparent that Plaintiffs’ counsel had given
little thought to their proposed jury instructions. The
ninety-three pages of joint proposed jury instructions
submitted with the parties’ joint pretrial order often
contained no explanation for why certain suggestions
were opposed. (Doc. No. 126-3.) The Court was left to
do most of the work on its own.

App. 64
After the presentation of evidence was complete, the
Court held a lengthy jury charge conference with
counsel on Friday, January 18, 2019. The Court paused
halfway through the charge conference to allow the
parties additional time to review the proposed jury
instructions. All of counsel’s objections and inquiries
were heard, and the Court ruled on most of them.
Despite the Court’s warning that the charge conference
would be the final chance for objections and argument
on the instructions, Plaintiffs emailed the Court and
opposing counsel a new draft of the proposed
instructions–fifteen hours before the jury was to be
charged. As Defendants’ counsel were in transit to
Houston at the time the email was received, the Court
refused to entertain these suggestions.
On January 22, 2019, the Court provided its
instructions to counsel prior to the seating of the jury.
It is particularly important to note that the
instructions on Question 12 were taken from the
American Bar Association’s Model Jury Instructions
in Civil Antitrust Cases, which Plaintiffs had
recommended as the appropriate template for the
instructions on their monopoly claims. (Doc. No. 126-3
at 35, 37-38, 40.)
V.

CONCLUSION

For the foregoing reasons, the Plaintiffs’ Motion for
Continued Jury Deliberations or for a New Trial is
DENIED. (Doc. No. 139.)
IT IS SO ORDERED.
SIGNED at Houston, Texas on the 22nd of
February, 2019.

App. 65
/s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

App. 66

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:16-CV-0114
[Filed: February 6, 2019]
__________________________________________
CONSTRUCTION COST DATA,
)
LLC, et al,
)
)
Plaintiffs,
)
VS.
)
)
THE GORDIAN GROUP, INC., et al,
)
)
Defendants.
)
__________________________________________)
FINAL JUDGMENT
Plaintiffs Construction Cost Data, LLC, The Job
Order Contracting Group, LLC, and Managed JOC
Solutions, LLC (collectively “Plaintiffs”) filed suit in
state court against Defendants The Gordian Group,
Inc. and R.S. Means Co., LLC (“Defendants”), on
December 1, 2015, seeking relief under state law. (Doc.
No. 1-1.) Defendants removed the case to federal court
on January 15, 2016. (Doc. No. 1.) Defendants filed a
counterclaim against Plaintiffs, Mark Powell,
Benjamin Stack, and All Cost Data Info, LLC (“ThirdParty Defendants”) on February 12, 2016, seeking

App. 67
relief under the common law, and federal copyright and
trademark law. (Doc. No. 7.)
The Court commenced a jury trial on January 14,
2019. The jury returned a special verdict on January
23, 2019. (Doc. No. 137.) The jury found that the
Plaintiffs had not proven that the “sham exception”
to Noerr-Pennington immunity applied, providing
Defendants an affirmative defense to Plaintiffs’ claims.
(Doc. No. 137 at 35.) The jury also found that
Defendants had not proven their sole remaining
counterclaim of copyright infringement. (Doc. No. 137
at 73.)
Pursuant to Federal Rule of Civil Procedure 58(a),
final judgment is hereby ENTERED for Defendants on
Plaintiffs’ claims, and for Plaintiffs and Third-Party
Defendants on Defendants’ counterclaim of copyright
infringement.
IT IS SO ORDERED.
SIGNED at Houston, Texas on this the 6th day of
February, 2019.
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

App. 68

APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:16-CV-0114
[Filed: June 24, 2019]
__________________________________________
CONSTRUCTION COST DATA,
)
LLC, et al,
)
)
Plaintiffs,
)
VS.
)
)
THE GORDIAN GROUP, INC., et al,
)
)
Defendants.
)
__________________________________________)
MEMORANDUM AND ORDER
Now pending before the Court is Plaintiffs’ Rule 59
Motion for a New Trial, or, Alternatively, Motion to
Modify. (Doc. No. 146.) Plaintiffs argue the following:
(1) the jury’s verdict was defective under Rule 48,
(2) the Court should reconsider its ruling on the
consistency of the jury’s answers to the special
interrogatories, (3) the Court should order a new trial
because the jury’s answers indicate confusion or failure
to follow instructions, (4) the Court should modify the
final take-nothing judgment entered on February 6,
2019, because Noerr-Pennington immunity does not

App. 69
apply to misrepresentations, and (5) the Court should
allow argument on attorneys’ fees under 17 U.S.C.
§§ 505, 1117(a).
The Court addressed many of these arguments in
its February 22, 2019, Memorandum and Order
(“Order”) explaining its ruling on Plaintiffs’ Rule 49
Motion for Continued Jury Deliberations or for a New
Trial. (Doc. No. 145.) Now, the Court reaffirms its
February 22 Order. The Court finds that the special
verdict returned by the jury was unanimous in its
response to Question 12, which disposed of the entire
case. (Doc. No. 145 at 24-25.) The Court declines to
reconsider its ruling on the consistency of the special
verdict, which analyzed the jury’s responses to each of
the interrogatories and addressed Plaintiffs’ concerns
about juror confusion. (Doc. No. 145 at 20-32.)
The Court declines to modify the final judgment as
requested regarding Plaintiffs’ business disparagement
claim for the reasons described in the Order, namely,
that the Fifth Circuit has not indicated that
misrepresentations are excepted from NoerrPennington immunity. (Doc. No. 145 at 5-20.) Plaintiffs
are correct that the Court accepted their theory about
misrepresentations at the summary judgment stage.
(Doc. No. 112 at 15.) However, upon further
examination of Fifth Circuit and Supreme Court
precedent regarding Noerr-Pennington immunity–
iscussed both during trial and at length in the
Order–the Court concluded that the Fifth Circuit has
neither adopted a general “fraud exception” to NoerrPennington immunity, nor expanded the Walker-

App. 70
Process patent fraud exception to trademark or
copyright claims. (Doc. No. 145 at 5-13.)
Finally, the Court notes that Plaintiffs’ complaints
about the time they were allotted to review the
proposed jury instructions were addressed in the
Court’s February 22 Order. (Doc. No. 145 at 32-33.)
For the foregoing reasons, the Plaintiffs’ Motion for
a New Trial is DENIED. (Doc. No. 146.) Plaintiffs may
file their Motion for Exceptional Case Finding and for
Attorneys’ Fees and Costs, if any, by July 20, 2019.
IT IS SO ORDERED.
SIGNED at Houston, Texas on the 24th of June,
2019.
/s/ Keith P. Ellison
HON. KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

App. 71

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20482
[Filed: August 11, 2020]
__________________________________________
CONSTRUCTION COST DATA, L.L.C.;
)
THE JOB ORDER CONTRACT GROUP,
)
L.L.C.; MANAGED J.O.C.
)
SOLUTIONS, L.L.C.,
)
)
Plaintiffs – Appellants
)
Cross-Appellees,
)
)
versus
)
)
THE GORDIAN GROUP,
)
INCORPORATED; R.S. MEANS
)
COMPANY, L.L.C.,
)
)
Defendants – Appellees )
Cross-Appellants.
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-114
Before DAVIS, GRAVES, and DUNCAN, Circuit
Judges.

App. 72
PER CURIAM:
Plaintiffs, Construction Cost Data, L.L.C., and Job
Order Contracting Group, L.L.C. (collectively “CCD”),
argue in their petition for panel rehearing that they
properly raised the argument that the jury’s
unanimous answer to Question 8 precluded application
of the Noerr-Pennington doctrine because the jury
found that Defendants made false statements. On
reconsideration, we agree that CCD raised this
argument before the district court in its Rule 59
motion.1 However, we conclude that the issue was not
raised on appeal until oral argument. As stated in our
opinion, we do not generally consider points raised for
the first time at oral argument.2
The petition for panel rehearing filed by Plaintiffs,
Construction Cost Data, L.L.C., and Job Order
Contracting Group, L.L.C., is DENIED.

1

Accordingly, we delete the second sentence of footnote 25 from
our June 30, 2020, opinion.
2

Whitehead v. Food Max of Miss., Inc..163 F.3d 265, 270 (5th Cir.
1998).

App. 73

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
C.A. 4:16-cv-00114
[Filed: January 23, 2019]
_____________________________________________
CONSTRUCTION COST DATA, LLC, JOB )
ORDER CONTRACTING GROUP, LLC,
)
AND MANAGED JOC SOLUTIONS, LLC
)
)
the CCD Group,
)
Counterclaim the Gordian Group
)
)
v.
)
)
THE GORDIAN GROUP, INC. AND
)
R.S. MEANS COMPANY LLC
)
)
the Gordian Group,
)
Counterclaim the CCD Group
)
)
v.
)
)
ALL COST DATA INFO, LLC, BENJAMIN )
STACK, AND MARK POWELL
)
)
Counter-the Gordian Group
)
_____________________________________________)

App. 74
JURY DEMANDED
CHARGE OF THE COURT
Table of Contents
1. Jury Charge . . . . . . . . . . . . . . . . . . . . . . . . . 7
1.1

Introductory Instruction. . . . . . . . . . . . 7

1.2

Burden of Proof: Preponderance of the
Evidence . . . . . . . . . . . . . . . . . . . . . . . . 9

1.3

Proximate Cause. . . . . . . . . . . . . . . . . 10

1.4

Evidence . . . . . . . . . . . . . . . . . . . . . . . 11

1.5

Witnesses . . . . . . . . . . . . . . . . . . . . . . 12

1.6

Impeachment by Witness’ Inconsistent
Statements . . . . . . . . . . . . . . . . . . . . . 14

1.7

Expert Witnesses . . . . . . . . . . . . . . . . 15

1.8

No Inference from Filing Suit . . . . . . 16

2. Specific Definitions and Instructions . . 17
2.1

Definitions. . . . . . . . . . . . . . . . . . . . . . 17

2.2

Damages . . . . . . . . . . . . . . . . . . . . . . . 19

3. The CCD Group’s Affirmative Claims . . 20
3.1

Introduction . . . . . . . . . . . . . . . . . . . . 20

3.2

Tortious Interference with Existing
Contract. . . . . . . . . . . . . . . . . . . . . . . . 21
3.2.1 First Element: Existence of
Contract . . . . . . . . . . . . . . . . . . 22

App. 75
3.2.2 Second Element: Interference
with Contract . . . . . . . . . . . . . . 24
3.3

Tortious Interference with Prospective
Business Relations . . . . . . . . . . . . . . . 26

3.4

Business Disparagement . . . . . . . . . . 29

3.5

Defenses . . . . . . . . . . . . . . . . . . . . . . . 31
3.5.1 Legal Justification . . . . . . . . . . . 31
3.5.2 Noerr-Pennington Doctrine . . . 33

3.6

Violations of the Texas Antitrust Act–
Monopoly . . . . . . . . . . . . . . . . . . . . . . . 37
3.6.1 Monopoly Generally . . . . . . . . . . 37
3.6.2 Possession of Monopoly Power
. . . . . . . . . . . . . . . . . . . . . . . . . 38
3.6.3 Monopoly–Anticompetitiv e
Conduct. . . . . . . . . . . . . . . . . . . 44

3.7

Violations of the Texas Antitrust Act–
Attempted Monopoly. . . . . . . . . . . . . . 47

3.8

Damages . . . . . . . . . . . . . . . . . . . . . . . 50
3.8.1 Compensatory Damages. . . . . . 51

4. The Gordian Group’s Affirmative Claims
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
4.1

Introduction . . . . . . . . . . . . . . . . . . . . 59

4.2

Copyright Infringement . . . . . . . . . . . 60

App. 76
4.3

Copyright
Registration–Subject
Matter . . . . . . . . . . . . . . . . . . . . . . . . . 61

4.4

Copyright
Registration–No
Presumption of Validity . . . . . . . . . . . 62

4.5

Copyright Validity–Registration of
Compilations . . . . . . . . . . . . . . . . . . . . 63

4.6

Copyright Validity–Ideas
and
Expression. . . . . . . . . . . . . . . . . . . . . . 64
4.7.1 Copyright Infringement–Access
& Substantial Similarity . . . . . 71
4.7.2 Copyright Infringement–Access
. . . . . . . . . . . . . . . . . . . . . . . . . 72
4.7.3 Copyright
Infringement–
Substantial Similarity . . . . . . . 73

4.8

Copyright Infringement–Vicarious &
Contributory Infringement–Generally
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76
4.8.1 Derivative Liability–Vicarious
Infringement–Elements and
Burden of Proof . . . . . . . . . . . . 77
4.8.2 D e r i v a t i v e
Liability–
Contributory Infringement . . . 79

4.9

Unfair Competition. . . . . . . . . . . . . . . 81

4.10

Defenses . . . . . . . . . . . . . . . . . . . . . . . 82
4.10.1

Copyright– Independent
Work . . . . . . . . . . . . . . . . . . 82

App. 77
4.10.2

Copyright–Fair Use . . . . . . 83

5. Final Instruction: Duty to Deliberate . . 87

App. 78
1. JURY CHARGE
1.1

INTRODUCTORY INSTRUCTION

MEMBERS OF THE JURY:
It is my duty and responsibility to instruct you on
the law you are to apply in this case. The law contained
in these instructions is the only law you may follow. It
is your duty to follow what I instruct you the law is,
regardless of any opinion that you might have as to
what the law ought to be.
If l have given you the impression during the trial
that I favor either party, you must disregard that
impression. If I have given you the impression during
the trial that I have an opinion about the facts of this
case, you must disregard that impression. You are the
sole judges of the facts of this case. Other than my
instructions to you on the law, you should disregard
anything I may have said or done during the trial in
arriving at your verdict.
You should consider all of the instructions about the
law as a whole and regard each instruction in light of
the others, without isolating a particular statement or
paragraph.
The testimony of the witnesses and other exhibits
introduced by the parties constitute the evidence. The
statements of counsel are not evidence; they are only
arguments. It is important for you to distinguish
between the arguments of counsel and the evidence on
which those arguments rest. What the lawyers say or
do is not evidence. You may, however, consider their
arguments in light of the evidence that has been

App. 79
admitted and determine whether the evidence
admitted in this trial supports the arguments. You
must determine the facts from all the testimony that
you have heard and the other evidence submitted. You
are the judges of the facts, but in finding those facts,
you must apply the law as I instruct you.
You are required by law to decide the case in a fair,
impartial, and unbiased manner, based entirely on the
law and on the evidence presented to you in the
courtroom. You may not be influenced by passion,
prejudice, or sympathy you might have for the plaintiff
or the defendant in arriving at your verdict.
1.2

B U R D E N
O F
P R O O F :
PREPONDERANCE OF THE EVIDENCE

Plaintiffs, Construction Cost Data, LLC and Job
Order Contract Group, LLC (“CCD Group”) have the
burden of proving their case by a preponderance of the
evidence. Likewise, the Defendants, The Gordian
Group, Inc. and R.S. Means Company LLC (“Gordian
Parties”) have the burden of proving their case by a
preponderance of the evidence.
To establish by a preponderance of the evidence
means to prove something is more likely so than not so.
If you find that the CCD Group (Construction Cost
Data, LLC and Job Order Contract Group, LLC) or the
Gordian Parties (The Gordian Group, Inc. and R.S.
Means Company LLC) have failed to prove any element
of their claim by a preponderance of the evidence, then
they may not recover on that claim.

App. 80
1.3

PROXIMATE CAUSE

“Proximate cause” means a cause that was a
substantial factor in bringing about an event, and
without which cause such event would not have
occurred. In order to be a proximate cause, the act or
omission complained of must be such that a person
using the degree of care required of him would have
foreseen that the event, or some similar event, might
reasonably result therefrom. There may be more than
one proximate cause of an event.
1.4

EVIDENCE

The evidence you are to consider consists of the
testimony of the witnesses, the documents and other
exhibits admitted into evidence, and any fair inferences
and reasonable conclusions you can draw from the facts
and circumstances that have been proven.
Generally speaking, there are two types of evidence.
One is direct evidence, such as testimony of an
eyewitness. The other is indirect or circumstantial
evidence. Circumstantial evidence is evidence that
proves a fact from which you can logically conclude
another fact exists. As a general rule, the law makes no
distinction between direct and circumstantial evidence,
but simply requires that you find the facts from a
preponderance of all the evidence, both direct and
circumstantial.
1.5

WITNESSES

You alone are to determine the questions of
credibility or truthfulness of the witnesses. In weighing
the testimony of the witnesses, you may consider the

App. 81
witness’ manner and demeanor on the witness stand,
any feelings or interest in the case, or any prejudice or
bias about the case, that he or she may have, and the
consistency or inconsistency of his or her testimony
considered in the light of the circumstances. Has the
witness been contradicted by other credible evidence?
Has he or she made statements at other times and
places contrary to those made here on the witness
stand? You must give the testimony of each witness the
credibility that you think it deserves.
Even though a witness may be a party to the action
and therefore interested in its outcome, the testimony
may be accepted if it is not contradicted by direct
evidence or by any inference that may be drawn from
the evidence, if you believe the testimony.
You are not to decide this case by counting the
number of witnesses who have testified on the opposing
sides. Witness testimony is weighed; witnesses are not
counted. The test is not the relative number of
witnesses, but the relative convincing force of the
evidence. The testimony of a single witness is sufficient
to prove any fact, even if a greater number of witnesses
testified to the contrary, if after considering all of the
other evidence, you believe that witness.
1.6

IMPEACHMENT
BY
WITNESS’
INCONSISTENT STATEMENTS

In determining the weight to give to the testimony
of a witness, consider whether there was evidence that
at some other time the witness said or did something,
or failed to say or do something, that was different
from the testimony given at the trial.

App. 82
A simple mistake by a witness does not necessarily
mean that the witness did not tell the truth as he or
she remembers it. People may forget some things or
remember other things inaccurately. If a witness made
a misstatement, consider whether that misstatement
was an intentional falsehood or simply an innocent
mistake. The significance of that may depend on
whether it has to do with an important fact or with
only an unimportant detail.
1.7

EXPERT WITNESSES

When knowledge of technical subject matter may be
helpful to the jury, a person who has special training or
experience in that technical field is permitted to state
his or her opinion on those technical matters. However,
you are not required to accept that opinion. As with
any other witness, it is up to you to decide whether to
rely on it.
1.8

NO INFERENCE FROM FILING SUIT

The fact that a person brought a lawsuit or claim
and is in court seeking damages creates no inference
that the person is entitled to a judgment. Anyone may
make a claim and file a lawsuit. The act of making a
claim in a lawsuit, by itself, does not in any way tend
to establish that claim and is not evidence.
2. SPECIFIC DEFINITIONS AND INSTRUCTIONS
2.1

DEFINITIONS

As used in throughout this charge and instructions,
the following terms have the following meanings:
a. “CCD” means Construction Cost Data, LLC;

App. 83
b. “CCD Group” or “Plaintiffs” collectively
means Construction Cost Data, LLC and The
Job Order Contract Group, LLC.
c. “CCD Parties” collectively means Construction
Cost Data, LLC, The Job Order Contract Group,
LLC, Mark Powell, and Benjamin Stack;
d. “Gordian” means The Gordian Group, Inc.;
e. “Gordian Parties” or “Defendants”
collectively means The Gordian Group, Inc. and
R.S. Means Company, LLC;
f. “JOC Group” means The Job Order Contract
Group, LLC;
g. “KATA” means Kata Management, LLC
h. “Powell” means Mark Powell
i. “Region 4” means Region 4 Education Service
Center.
j. “Region 5” means Region 5 Education Service
Center.
k. “RS Means” means R.S. Means Company, LLC;
l. “Stack” means Benjamin Stack;
m. “TCPN” Texas Cooperative Purchasing
Network and Region 4 Education Service
Center.
2.2

DAMAGES

In answering questions about damages, answer
each question separately. Do not increase or reduce the

App. 84
amount in one answer because of your answer to any
other question about damages. Do not speculate about
what any party’s ultimate recovery may or may not be.
Any recovery will be determined by the court when it
applies the law to your answers at the time of
judgment.
3. THE CCD GROUP’S AFFIRMATIVE CLAIMS
3.1

INTRODUCTION

Plaintiffs, Construction Cost Data, LLC and Job
Order Contract Group, LLC, (collectively, the “CCD
Group”) seeks damages against Defendants, The
Gordian Group, Inc. and R.S. Means Company LLC
(“Gordian Parties”), for violations of the Texas
Antitrust Act, tortious interference with contract and
business relationships, and business disparagement.
The Gordian Parties deny such claims. To help you
understand the evidence in this case, I will explain
some of the legal terms you have heard during this
trial.
3.2

TORTIOUS INTERFERENCE
EXISTING CONTRACT

WITH

To prevail on its claim for tortious interference with
an existing contract, the CCD Group must prove four
elements by a preponderance of the evidence: (1) the
existence of a contract subject to interference, (2) an act
of interference that was willful and intentional, (3) the
act was a proximate cause of the CCD Group’s damage,
and (4) actual damage or loss occurred.

App. 85
Interference is tortious only if it is intentional, and
the intent required is the intent to interfere, not just an
intent to do the particular acts done.
3.2.1 First Element: Existence of Contract
To be enforceable, a contract must be reasonably
definite and certain. Failure to agree on or include an
essential term renders a contract unenforceable.
Instruction on Formation of Agreement
In deciding whether the parties reached an
agreement, you may consider what they said and did in
light of the surrounding circumstances, including any
earlier course of dealing. You may not consider the
parties’ unexpressed thoughts or intentions.
Conditions Precedent
A condition precedent may be either a condition to
the formation of a contract or to an obligation to
perform an existing agreement. Conditions may,
therefore, relate either to the formation of contracts or
to liability under them. A condition precedent is an
event that must happen or be performed before a right
can accrue to enforce an obligation.
Conditions precedent to an obligation to perform are
acts or events that are to occur after the contract is
made and that must occur before there is a right to
immediate performance and before there can be a
breach of contractual duty.
Although no particular words are necessary to
create a condition, terms such as “if,” “provided that,”
and “on condition that” usually connote a condition

App. 86
rather than a covenant or promise. Absent such a
limiting clause, whether a provision represents a
condition or a promise must be gathered from the
contract as a whole and from the intent of the parties.
3.2.2 Second Element: Interference with Contract
Interference is intentional if committed with the
desire to interfere with the contract or with the belief
that interference is substantially certain to result.
Interference can include conduct that prevents
performance of a contract or makes performance of a
contract impossible, more burdensome, more difficult,
or of less or no value to the one entitled to performance.
However, ordinarily, merely inducing a contract
obligor to do what it has the right to do is not
actionable interference.
QUESTION NO. 1
If the JOC Group had a contract with KATA
Management, LLC, did Gordian and/or RS Means
intentionally interfere with that contract?
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

RS Means:

Yes (12)

QUESTION NO. 2
If the Construction Cost Data, LLC had a contract
with 4Clicks Solutions, LLC, did Gordian and/or RS
Means intentionally interfere with that contract?

App. 87
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

RS Means:

Yes (12)

QUESTION NO. 3
If the JOC Group had a contract with TCPN, did
Gordian and/or RS Means intentionally interfere with
that contract?
Answer “Yes” or “No” for each of the following:

3.3

Gordian:

Yes (12)

RS Means:

Yes (12)

TORTIOUS
INTERFERENCE
WITH
PROSPECTIVE BUSINESS RELATIONS

Wrongful Interference with Prospective Contractual
or Business Relations
The elements of wrongful interference with
prospective contractual or business relations are:
(1) there is a reasonable probability that the CCD
Group would have entered into a business relationship
with a third party;
(2) Gordian and/or RS Means either acted with a
conscious desire to prevent the relationship from
occurring or knew the interference was certain or
substantially certain to occur as a result of the conduct;
(3) Gordian and/or RS Means was independently
tortious or unlawful;

App. 88
(4) the interference proximately caused the CCD
Group’s injury, and
(5) the CCD Group suffered actual damage or loss
as a result.
QUESTION NO. 4
Did Gordian and/or RS Means wrongly interfere
with the JOC Group’s prospective business relationship
with KATA?
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

RS Means:

Yes (12)

QUESTION NO. 5
Did Gordian and/or RS Means wrongly interfere
with the Construction Cost Data, LLC’s prospective
business relationship with 4Clicks Solutions, LLC?
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

RS Means:

Yes (12)

QUESTION NO. 6
Did Gordian and/or RS Means wrongly interfere
with the JOC Group’s prospective business relationship
with TCPN?
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

App. 89
RS Means:

Yes (12)

QUESTION NO. 7
Did Gordian and/or RS Means wrongly interfere
with the CCD Group’s prospective business
relationship with Region 5?
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

RS Means:

Yes (12)

3.4

BUSINESS DISPARAGEMENT

Gordian and/or RS Means disparaged the business
of the CCD Group if they published a disparaging false
statement about the business, and when they
published the statement, they knew the falsity of the
statement or they acted with reckless disregard of
whether the statement is false, or if they acted with ill
will or intended to interfere with the economic interest
of the CCD Group, and their publication of the
statement played a substantial part in inducing others
not to do business with the CCD Group and resulted in
a specific pecuniary loss to the CCD Group.
A statement is “published” if it is intentionally
communicated to a person other than the CCD Group
who is capable of understanding its meaning.
In answering this question, you may consider only
the contents of the prelitigation correspondence.

App. 90
QUESTION NO. 8
Did Gordian and/or RS Means disparage the
business of the CCD Group?
Answer “Yes” or “No” for each of the following:
Gordian:

Yes (12)

RS Means:

Yes (12)

3.5

DEFENSES

3.5.1 Legal Justification
QUESTION NO. 9
If you answered “Yes” to Question No. 1, then
answer the following question. Otherwise, do not
answer the following question.
Did the Gordian Parties and R.S. Means have a
good-faith belief that they had a valid basis to send
cease-and-desist letters regarding their copyrighted
material to KATA Management, LLC?
Answer “Yes” or “No:” Yes (1)
No (11)
QUESTION NO. 10
If you answered “Yes” to Question No. 2, then
answer the following question. Otherwise, do not
answer the following question.
Did the Gordian Parties and R.S. Means have a
good-faith belief that they had a valid basis to send
cease-and-desist letters regarding their copyrighted
material to 4Clicks Solutions, LLC?

App. 91
Answer “Yes” or “No:” Yes (1)
No (11)
QUESTION NO. 11
If you answered “Yes” to Question No. 3, then
answer the following question. Otherwise, do not
answer the following question.
Did the Gordian Parties and R.S. Means have a
good-faith belief that they had a valid basis to send
cease-and-desist letters regarding their copyrighted
material to TCPN?
Answer “Yes” or “No:” Yes (1)
No (11)
3.5.2 Noerr-Pennington Doctrine
The Gordian Parties claim that their conduct in
sending the cease-and-desist letters, which form the
basis of some of Plaintiffs’ claims against them, was a
good-faith attempt to enforce their legal rights through
the court system. The Constitution ensures the right of
everybody, whether acting alone or in combination or
agreement with others, to petition or appeal to the
courts for judicial action, recognizing that when people
do so, they will naturally seek judicial action that
favors them and also may be unfavorable to others. The
law provides that the right to use the courts to seek
judicial action is an important right, and that the
exercise of that right, does not normally violate the
law. This principle extends to threats to litigate, such
as cease-and-desist letters.

App. 92
Bringing or threatening to bring one or more
lawsuits against the Plaintiffs does not violate the laws
unless the suit or suits were a sham. To prove that the
litigation or threatened litigation they challenge was a
sham, and that the litigation thus can be the basis for
its legal claim, Plaintiffs must prove two things:
(1) that the Gordian Parties’ threatened suit was
objectively baseless; and (2) the baseless suit
threatened was an attempt to harass or interfere
directly with the business relationship of the Plaintiffs
through the cease-and-desist leters as opposed to
through the outcome of the threatened suit.
A lawsuit is objectively baseless only if no
reasonable litigant could realistically expect to win.
Just because the Gordian Parties’ suit was
unsuccessful in some ways does not mean that it was
objectively baseless. In other words, if someone in the
Gordian Parties’ position could have had a reasonable
belief that there was a realistic chance of winning, the
suit was not objectively baseless.
If you find that the Gordian Parties’ threatened suit
was not objectively baseless, then you do not need to
consider whether the Gordian Parties’ lawsuit was an
attempt to harass or interfere with the business
relationships of the Plaintiffs. Instead, you must find
for the Gordian Parties and against Plaintiffs on
Plaintiffs charges that the Gordian Parties violated the
laws by threatening a lawsuit.
If, however, you find that the Gordian Parties’
threatened lawsuit was objectively baseless, then you
must determine whether the Gordian Parties’ primary
objective in bringing the lawsuit was to hurt Plaintiffs

App. 93
by bringing or continuing the lawsuit regardless of the
ultimate outcome of the lawsuit, or whether the
Gordian Parties’ primary objective was to obtain the
relief sought in the suit.
The threats of litigation at issue here, that
Plaintiffs contend is a sham, sought the following
judicial relief: for Plaintiffs to discontinue use of what
the Gordian Parties believed to be their proprietary
data. The Gordian Parties contend that the true
purpose in threatening the lawsuit in the cease-anddesist letters was to secure this relief. Plaintiffs, on the
other hand, maintain that the Gordian Parties’ true
purpose in bringing the suit was not to win a favorable
judgment against Plaintiffs; but to harass, bar, or delay
Plaintiffs, by the process of litigating, regardless of
outcome.
In determining the Gordian Parties’ purpose, you
may consider whatever direct evidence of the Gordian
Parties’ motivation for bringing the lawsuit is available
to you. Of course, you also may consider circumstantial
evidence of the Gordian Parties’ true purpose.
If you find that no reasonable person could have
realistically expected to succeed in a suit such as the
one defendant brought or maintained against
Plaintiffs, and that Defendants’ primary purpose in
bringing or continuing it was to inflict harm on plaintiff
caused by the suit itself, as opposed to the relief
sought, then you must next consider whether
defendants’ actions in bringing the suit constitute
anticompetitive conduct, business disparagement, or
tortious interference, that is, whether the remaining
elements of (1) tortious interference with contract,

App. 94
(2) tortious interference with a prospective business
relationship, (3) business disparagement, and
(4) monopoly or attempted monopoly have been proven.
QUESTION NO. 12
Was the Gordian Group and R.S. Means’ prelitigation correspondence “objectively baseless in the
sense that no reasonable litigant could reasonably
expect success on the merits?”
Answer “Yes” or “No”: No (12)
If the activity of the Gordian Group and R.S. Means
was objectively baseless, was the subjective intent
merely to interfere with the CCD Parties?
Answer “Yes” or “No”: /
3.6

VIOLATIONS
OF
THE
TEXAS
ANTITRUST ACT–MONOPOLY

3.6.1 Monopoly Generally
The CCD Group allege that they were injured by the
Gordian Parties and R.S. Means’ unlawful
monopolization of the market for job order contracting
unit price books in Texas. To establish a violation of the
Texas Antitrust Act, the CCD Group must prove each
of the following elements by a preponderance of the
evidence:
(1) that the Gordian Parties and R.S. Means possess
monopoly power in the relevant market; and
(2) that the Gordian Parties and R.S. Means
willfully acquired or maintained monopoly power in
that market by engaging in anticompetitive conduct, as

App. 95
distinguished from growth or development as a
consequence of a superior product, business acumen, or
historic accident.
3.6.2 Possession of Monopoly Power
Monopoly power is the power to control prices or
exclude competition in a relevant market. The power to
control prices is the power of a company to establish
and maintain appreciably higher prices for its goods or
services, for an appreciable period of time, than those
competitively charged for equivalent goods or services
without a substantial loss of business to competitors.
However, monopoly power, in and of itself, is not
unlawful.
There can be both direct and indirect proof of the
existence of monopoly power in a market. Here, if the
CCD Group prove by a preponderance of the evidence
that the Gordian Parties has the power to control
prices or exclude competition in the relevant market,
then you may conclude that the Gordian Parties had
monopoly power in the market. Monopoly power may
also be proven indirectly, by evidence of market share
or barriers to entry into the market.
DIRECT PROOF
As I instructed you earlier, monopoly power is the
power to control prices or exclude competition in a
relevant antitrust market. Plaintiffs have the burden
of proving that defendant has the ability to raise or
maintain the prices that it charges for goods or services
in the relevant market about competitive levels.
Plaintiff must prove that defendant has the power to do

App. 96
so by itself–that is, without assistance of, and despite
competition from, any existing or potential competitors.
For example, monopoly power may be shown by
proving that the Gordian Parties had the power to raise
or maintain the prices it charged for goods or services
in the relevant market above competitive levels for a
significant period of time. The Plaintiffs must prove
that the Gordian Parties were able to do so by
themselves, without the assistance of, and despite
competition from, any existing or potential competitors.
On the other hand, if the Gordian Parties attempted to
maintain prices above competitive levels, but would
lose so much business to other competitors that the
price increase would become unprofitable and would
have to be withdrawn, then the Gordian Parties do not
have monopoly power.
Similarly, monopoly power may be shown by
proving that the Gordian Parties had the power to
exclude competition from the relevant market. For
example, if the Gordian Parties attempted to maintain
prices above competitive levels, but new competitors
could enter the relevant market or existing competitors
could expand their sales and take so much business
that the price increase would become unprofitable and
would have to be withdrawn, then the Gordian Parties
do not have monopoly power.
The ability to earn high profit margins or a high
rate of return does not necessarily mean that the
Gordian Parties and R.S. Means have monopoly power.
Other factors may enable a company without monopoly
power to sell at higher prices or earn higher profit
margins than its competitors, such as the ability to

App. 97
offer superior products or services, the ability to
maintain an efficient business operation, or superior
advertising or marketing. However, an ability to sell at
higher prices or earn higher profit margins than other
companies for similar goods or services over a long
period of time may be evidence of monopoly power.
INDIRECT PROOF
Monopoly power may also be proven indirectly, by
evidence of the structure of the market, by evidence of
market share, and by barriers to entry into the market.
Plaintiff has introduced evidence of the structure of the
market to show that defendant has monopoly power.
The evidence presented by the parties includes
evidence of Defendants’ market share. If this evidence
establishes that the Gordian Parties has the power to
control prices or exclude competition in the relevant
antitrust market, then you may conclude that
defendant has monopoly power in the market.
Market Share
One factor you should consider is the Gordian
Group’s market share. Based on the evidence you have
heard, you should determine the Gordian Group’s
market share in the relevant markets. A market share
above 50 percent may be sufficient to support an
inference that the Gordian Parties have monopoly
power. The likelihood that a company has monopoly
power is stronger the higher that company’s share is
above 50 percent.
In considering whether the Gordian Parties have
monopoly power it is also important to consider other
aspects of the relevant market, such as: the existence

App. 98
of barriers to entry into the market by potential
competitors, entry into and exit from the market by
competitors, and the size and number of competitors in
the market. Along with the Gordian Group’s market
share, these factors should inform you as to whether
the Gordian Parties have monopoly power.
Market Share Trends
The trend in the Gordian Group’s market share is
also something you may consider. An increasing
market share may strengthen an inference that a
company has monopoly power, particularly where that
company has a high market share, while a decreasing
share might show that a company does not have
monopoly power.
Barriers to Entry
You may also consider whether there are barriers to
entry into the relevant market. Barriers to entry make
it difficult for new competitors to enter the relevant
market in a meaningful and timely way. Barriers to
entry might include intellectual property rights (such
as patents or trade secrets), the large financial
investment required to build a plant or satisfy
governmental regulations, specialized marketing
practices, and the reputation of the companies already
participating in the market (or the brand name
recognition of their products).
Evidence of low or no barriers may be evidence that
defendant does not have monopoly power, regardless of
defendant’s market share, because new competitors
could enter easily if defendant attempted to raise prices
for a substantial period of time. By contrast, evidence

App. 99
of high barriers to entry along with high market share
may support an inference that defendant has monopoly
power.
Entry and Exit by Other Companies
The history of entry and exit in the relevant market
may be helpful to consider. Entry of new competitors or
expansion of existing competitors may be evidence that
the Gordian Parties lack monopoly power. On the other
hand, departures from the market, or the failure of
firms to enter the market, particularly if prices and
profit margins are relatively high, may support an
inference that the Gordian Parties have monopoly
power.
Number and Size of Competitors
You may consider whether defendants’ competitors
are capable of effectively competing. In other words,
you should consider whether the financial strength,
market shares, and number of competitors act as a
check on defendant’s ability to price its products. If
defendant’s competitors are vigorous or have large or
increasing market shares this may be evidence that
defendant lacks monopoly power. On the other hand, if
you determine that defendant’s competitors are weak
or have small or declining market shares, this may
support an inference that defendant has monopoly
power.
CONCLUSION
If you find that defendants have monopoly power in
the relevant market, then you must consider the
remaining elements of this claim. If you find that

App. 100
defendant does not have monopoly power, then you
must find for defendant and against plaintiff on this
claim.
3.6.3 Monopoly–Anticompetitive Conduct
Anticompetitive conduct is acts or practices, other
than competition on the merits, that have the effect of
preventing or excluding competition or frustrating or
foreclosing the efforts of other companies to compete for
customers within the relevant market. You must
distinguish harm to competition from harm to a single
competitor or group of competitors, which in itself, is
not harm to competition. Harm to a competitor in the
absence of harm to the process of competition and
consumer welfare, is not harm to competition.
You should distinguish the acquisition or
maintenance of monopoly power through
anticompetitive conduct from the acquisition or
maintenance of monopoly power by supplying better
products or services, possessing superior business
skills, or because of luck, which is not unlawful.
The difference between anticompetitive conduct and
conduct that has a legitimate business purpose can be
difficult to determine. This is because all companies
have a desire to increase their profits and increase
their market share. These goals are an essential part
of a competitive marketplace, and the achievement of
these goals is not unlawful as long as a company does
not use an anticompetitive means to achieve these
goals.
In determining whether the Gordian Group’s
conduct was anticompetitive or legitimate business

App. 101
conduct, you should determine whether the conduct is
consistent with competition on the merits of price,
quality, or service, whether it provides benefits to
consumers, and whether the conduct would make
business sense apart from any effect it has on
excluding competition or harming competitors.
As a general rule, businesses are free to choose the
parties with whom they will deal, as well as the prices,
terms, and conditions of that dealing. Anticompetitive
conduct must represent something more than the
conduct of business that is part of the normal
competitive process or commercial success.
Anticompetitive conduct must represent conduct that
has made it very difficult or impossible for competitors
to compete and that was taken for no legitimate
business reason.
QUESTION NO. 13
Did Gordian and R.S. Means:
(1) possess monopoly power over the job order
contracting unit price book market in Texas; and
(2) willfully acquire or maintain its monopoly power
in the job order contracting unit price book market in
Texas by engaging in anticompetitive conduct?
Answer “Yes” or “No”
Answer: Yes (11)
No (1)

App. 102
3.7

VIOLATIONS
ANTITRUST
MONOPOLY

OF
THE
TEXAS
ACT–ATTEMPTED

You must decide if the evidence shows the Gordian
Parties acted with the conscious aim of acquiring the
power to control prices or exclude competition in the
relevant market.
There are several ways in which the CCD Group
may prove the Gordian Parties had the specific intent
to monopolize. Specific intent may be proven by direct
evidence. For example, there may be evidence of direct
statements of the Gordian Parties’ intent to obtain a
monopoly in the relevant market. Such proof of specific
intent may be established by documents prepared by
responsible officers or employees of the Gordian Parties
at or about the time of the conduct in question or by
testimony concerning statements made by responsible
officers or employees of the the Gordian Group. You
must be careful, however, to distinguish between the
the Gordian Group’s intent to complete aggressively
(which is lawful), which may be accompanied by
aggressive language, and a true intent to acquire
monopoly power by using anticompetitive means.
Even if you decide that the evidence does not prove
directly that the Gordian Parties actually intended to
obtain a monopoly, specific intent also may be proven
by indirect evidence. For example, specific intent may
be inferred from what the Gordian Parties did. For
example, if the evidence shows that the natural and
probable consequence of the Gordian Group’ conduct in
the relevant market was to give the the Gordian
Parties control over prices or to exclude competition,

App. 103
and that this was plainly foreseeable by the the
Gordian Group, then you may (but are not required to)
infer the the Gordian Parties specifically intended to
acquire monopoly power.
In determining whether there was a dangerous
probability that the Gordian Parties would acquire
monopoly power in a market, you should consider such
factors as the Gordian Group’s market share, whether
the barriers to entry into the market made it difficult
for competitors to enter the market, and the likely
effect of any anticompetitive conduct the Gordian
Group’s share of the market. I have instructed you on
these factors above.
A dangerous probability of success need not mean
that success was nearly certain, but it does mean that
there was a substantial and real likelihood that the
Gordian Parties would ultimately acquire market
power.
QUESTION NO. 14
Did Gordian and R.S. Means engage in predatory or
anticompetitive conduct with a specific intent to
achieve monopoly power in the job order contracting
unit price book market in Texas, and a dangerous
probability of achieving monopoly power?
Answer “Yes” or “No”: Yes (12)
No (0)

App. 104
3.8

DAMAGES

No Duplication
Consider the following elements of damages, if any,
and none other. You shall not award any sum of money
on any element if you have otherwise, under some
other element, awarded a sum of money for the same
loss. That is, do not compensate twice for the same loss,
if any.
Consequential
If you find for Plaintiffs on their claims, Plaintiffs
may collect any lost profits that were a natural,
probable, and foreseeable consequence of Defendants’
conduct. Lost vendor fees and lost sales are both claims
for lost profits.
4.3.8.1

Compensatory Damages

If you answered “Yes” to Question 1 or Question
4 as to Gordian and/or RS Means, then answer the
following question as to that party. Otherwise, do not
answer the following question.
Question No. 15
What sum of money, if any, if paid now in cash,
would fairly and reasonably compensate the CCD
Group for their damages, if any, proximately caused by
such interference?
Consider the following elements of damage, if any,
and none other.
Do not add any amount for interest on damages, if
any.

App. 105
Answer separately in dollars and cents for damages,
if any.
1. Lost vendor fees for TCPN KATA JOC Projects
sustained in the past: $1,095,000
2. Lost vendor fees for TCPN KATA JOC Projects,
that, in reasonable probability, will be sustained in
the future: $0
3. Lost sales for KATA Audits sustained in the past:
$128,000
4. Lost sales for KATA Audits, that, in reasonable
probability, will be sustained in the future: $76,000
5. Lost sales from 4Clicks Solutions, LLC licenses
sustained in the past: $172,000
6. Lost sales from 4Clicks Solutions, LLC licenses
that, in reasonable probability, will be sustained in
the future: $0
If you answered “Yes” to Question 2 or Question
5 as to Gordian and/or RS Means, then answer the
following question as to that party. Otherwise, do not
answer the following question.
QUESTION NO. 16
What sum of money, if any, if paid now in cash,
would fairly and reasonably compensate the CCD
Group for their damages, if any, proximately caused by
such interference?
Consider the following elements of damage, if any,
and none other.

App. 106
Do not add any amount for interest on damages, if
any.
Answer separately in dollars and cents for damages,
if any.
1. Lost sales from 4Clicks Solutions, LLC licenses
sustained in the past: $0
2. Lost sales from 4Clicks Solutions, LLC licenses
that, in reasonable probability, will be sustained in
the future: $0
If you answered “Yes” to Question 3 or Question
6 as to Gordian and/or RS Means, then answer the
following question as to that party. Otherwise, do not
answer the following question.
QUESTION NO. 17
What sum of money, if any, if paid now in cash,
would fairly and reasonably compensate the CCD
Group for their damages, if any, proximately caused by
such interference?
Consider the following elements of damage, if any,
and none other.
Do not add any amount for interest on damages, if
any.
Answer separately in dollars and cents for damages,
if any.
1. Lost vendor fees for TCPN KATA JOC Projects
sustained in the past: $0

App. 107
2. Lost vendor fees for TCPN KATA JOC Projects,
that, in reasonable probability, will be sustained in
the future: $0
3. Lost sales for KATA Audits sustained in the past:
$0
4. Lost sales for KATA Audits, that, in reasonable
probability, will be sustained in the future: $0
5. Lost sales from 4Clicks Solutions, LLC licenses
sustained in the past: $0
6. Lost sales from 4Clicks Solutions, LLC licenses
that, in reasonable probability, will be sustained in
the future: $0
If you answered “Yes”“ to Question 7 as to Gordian
and/or RS Means, then answer the following question
as to that party. Otherwise, do not answer the
following question.
QUESTION NO. 18
What sum of money, if any, if paid now in cash,
would fairly and reasonably compensate the CCD
Group for their damages, if any, proximately caused by
such interference?
Consider the following elements of damage, if any,
and none other.
Do not add any amount for interest on damages, if
any.
Answer separately in dollars and cents for damages,
if any.

App. 108
1. Lost sales from Region 5 ESC work sustained in the
past: $29,000
2. Lost sales from Region 5 ESC work, that, in
reasonable probability, will be sustained in the
future: $0
If you answered “Yes” to Question No. 8 as to
Gordian and/or RS Means, then answer the following
question as to that party. Otherwise, do not answer the
following question.
QUESTION NO. 19
What sum of money, if any, if paid now in cash,
would fairly and reasonably compensate the CCD
Group for their actual pecuniary loss, if any, that was
proximately caused by Gordian and/or RS Means
disparagement?
Consider the following elements of damage, if any,
and none other.
Do not add any amount for interest on damages, if
any.
Answer separately in dollars and cents for damages,
if any.
1. Lost vendor fees for TCPN KATA JOC Projects
sustained in the past:
Gordian: $0
R.S.Means: $0

App. 109
2. Lost vendor fees for TCPN KATA JOC Projects,
that, in reasonable probability, will be sustained in
the future:
Gordian: $0
R.S.Means: $0
3. Lost sales for KATA Audits sustained in the past:
Gordian: $0
R.S.Means: $0
4. Lost sales for KATA Audits, that, in reasonable
probability, will be sustained in the future:
Gordian: $0
R.S.Means: $0
5. Lost sales from 4Clicks Solutions, LLC licenses
sustained in the past:
Gordian: $0
R.S.Means: $0
6. Lost sales from 4Clicks Solutions, LLC licenses
that, in reasonable probability, will be sustained in
the future: $0
Gordian: $0
R.S.Means: $0
7. Lost sales from Region 5 ESC work sustained in the
past:
Gordian: $0

App. 110
R.S.Means: $0
8. Lost sales from Region 5 ESC work, that, in
reasonable probability, will be sustained in the
future:
Gordian: $0
R.S.Means: $0
If you answered “Yes” to Question 13 or Question
14, then answer the following question as to that party.
Otherwise, do not answer the following question.
QUESTION NO. 20
What sum of money, if any, if paid now in cash,
would fairly and reasonably compensate the CCD
Group for their damages, if any, proximately caused by
the Gordian Group’ anticompetitive conduct?
Consider the following elements of damage, if any,
and none other
Do not add any amount for interest on damages, if
any.
Answer separately in dollars and cents for damages,
if any.
1. Lost vendor fees for TCPN KATA JOC Projects
sustained in the past: $1,095,000
2. Lost vendor fees for TCPN KATA JOC Projects,
that, in reasonable probability, will be sustained in
the future: $0

App. 111
3. Lost sales for KATA Audits sustained in the past:
$128,000
4. Lost sales for KATA Audits, that, in reasonable
probability, will be sustained in the future: $76,000
5. Lost sales from 4Clicks Solutions, LLC licenses
sustained in the past: $172,000
6. Lost sales from 4Clicks Solutions, LLC licenses
that, in reasonable probability, will be sustained in
the future: $0
7. Lost sales from Region 5 ESC work sustained in the
past: $29,000
8. Lost sales from Region 5 ESC work, that, in
reasonable probability, will be sustained in the
future: $0
4. THE GORDIAN GROUP’S AFFIRMATIVE CLAIMS
4.1

INTRODUCTION

The Defendants, The Gordian Group and R.S.
Means Company, LLC, have brought counterclaims
seeking damages against the Plaintiffs, Construction
Cost Data, LLC, Job Order Contract Group, LLC,
Benjamin Stack, and Mark Powell (collectively, the
“CCD Parties”) for copyright infringement, unfair
competition and unjust enrichment. The CCD Parties
deny such claims. To help you understand the evidence
in this part of the case, I will explain some of the legal
terms you have heard during this trial.

App. 112
4.2

COPYRIGHT INFRINGEMENT

DEFINITION OF COPYRIGHT. The owner of a
copyright has the right to exclude any other person
from reproducing, preparing derivative works,
distributing, performing, displaying, or using the work
covered by copyright for a specific period of time.
Copyrighted work can be a literary work, musical work,
dramatic work, pantomime, choreographic work,
pictorial work, graphic work, sculptural work, motion
picture, audiovisual work, sound recording,
architectural work, mask works fixed in semiconductor
chip products, or a computer program. Facts, ideas,
procedures, processes, systems, methods of operation,
concepts, principles or discoveries cannot themselves be
copyrighted. The copyrighted work must be original. An
original work that closely resembles other works can be
copyrighted so long as the similarity between the two
works is not the result of copying.
In this case, R.S. Means contends that the CCD
Parties have infringed R.S. Means’ copyright. R.S
Means has the burden of proving by a preponderance
of the evidence, first, that R.S Means is the owner of a
valid copyright; and second, that the CCD Parties
copied original elements of the copyrighted work.
Preponderance of the evidence means that you must be
persuaded by the evidence that it is more probably true
than not true that the copyrighted work was infringed.
4.3

COPYRIGHT
REGISTRATIONSUBJECT MATTER

The work that R.S Means claims it has a valid
copyright to is known as the “RS Means 2008 Data

App. 113
Compilation,” which is Defendants’ Exhibit
23/Plaintiffs’ Exhibit 22A. Only that part of the work
comprised of original works of authorship fixed in any
tangible form of expression from which it can be
perceived, reproduced, or otherwise communicated,
either directly or with the aid of a machine or device is
protected by the Copyright Act.
4.4

COPYRIGHT
REGISTRATION-NO
PRESUMPTION OF VALIDITY

Copyright automatically exists in a work the
moment it is fixed in any tangible medium of
expression. The owner of the copyright may register the
copyright by delivering to the Copyright Office of the
Library of Congress a copy of the copyrighted work.
After determining that the material is copyrightable
and that legal and formal requirements have been
satisfied, the Register of Copyrights registers the work
and issues a certificate of registration to the copyright
owner. There’s no administrative investigation on the
originality or uniqueness of the work or a
determination of the claim’s validity. A certificate of
copyright registration is refused only if the work falls
outside the broad category of matter eligible for
copyright registration. The fact that a copyright
registration has been issued doesn’t conclusively
establish whether the work is entitled to copyright
protection.
4.5

COPYRIGHT
VALIDITY–
REGISTRATION OF COMPILATIONS

An owner is entitled to copyright protection of a
compilation. A compilation is a work formed by the

App. 114
collection and assembling of preexisting materials or of
data that are selected, coordinated, or arranged in such
a way that the resulting work as a whole constitutes an
original work of authorship.
R.S. Means claims that its work is a compilation
and that its selection, arrangement, and coordination
of preexisting materials, rather than the materials
themselves, are protectable.
The selection, arrangement, and coordination of
preexisting materials or data in a compilation does not
possess the required degree of creativity for copyright
protection if the arrangement or coordination of preexisting materials is typical, commonplace, or expected
as a matter of course.
For example, the arrangement of last names in a
telephone directory in alphabetical order isn’t creative.
Similarly, the arrangement of a business telephone
directory in an alphabetized list of business types, with
individual businesses listed in alphabetical order under
the applicable headings, isn’t original.
4.6

COPYRIGHT VALIDITY–IDEAS AND
EXPRESSION

Copyright law allows the author of an original work
to prevent others from copying the way or form the
author used to express the ideas in the author’s work.
Copyright protection doesn’t extend to all the
elements of a copyrighted work. Elements covered by
the copyright protection are called “protected matter,”
and noncovered elements are “unprotected matter.”

App. 115
Because unprotected matter isn’t entitled to copyright
protection, another author may copy it.
There are various types of unprotected matter. They
include:
• a portion of the work that is not original to the
author;
• a portion of the work that is in the public
domain;
• an idea, concept, principle, discovery, fact, actual
event, process, or method contained in a work;
and
• work serving functional purposes or work that is
dictated by external factors such as particular
business practices.
A work that’s “in the public domain” is one that does
not have copyright protection, so anyone may use all or
part of it in another work without charge.
In copyright law, it’s important to distinguish
between the ideas in a work and the author’s
expression of the ideas. Only the particular expression
of an idea can be copyrighted. Copyright law does not
give the author the right to prevent others from
copying or using the underlying ideas contained in the
work, such as any procedures, processes, systems,
methods of operation, concepts, principles or
discoveries. In order to protect any ideas in the work
from being copied, the author must secure some other
form of legal protection, because ideas cannot be
copyrighted.

App. 116
In other words, the ideas in a work are unprotected
matter. But an idea must be expressed in some way,
and the expression or means of expression of an idea is
protected matter.
For example, copyright law doesn’t protect the idea
of a determined captain hunting a giant whale. But
copyright law does protect the particular expression of
this idea in the book Moby-Dick.
Put another way, the author of a work has no
exclusive right to the underlying ideas, concepts,
principles, discoveries, facts, actual events, processes,
or methods contained in a work. But the author’s
copyright does extend to the means by which those are
expressed, described, depicted, implemented, or
otherwise communicated in the work.
If you find that R.S. Means is seeking copyright
protection in:
• a portion of a work that isn’t original to the
author;
• a portion of the work that’s in the public domain;
• an idea, concept, principle, discovery, fact, actual
event, process, or method expressed or described
in a work, or
• work serving functional purposes or work that is
dictated by external factors such as particular
business practices.
you should exclude that material from the protected
matter R.S. Means’ copyright infringement claim can
be based on.

App. 117
QUESTION NO. 21
As discussed in Instruction 4.5, the third-party or
preexisting material in a compilation is not entitled to
copyright protection, but the selection, arrangement,
and coordination may be.
A work in the public domain is not “independently
created” by R.S. Means.
Do you find from a preponderance of the evidence
that:
(1) the selection, arrangement, and coordination of
the preexisting materials or data comprising of the
2008 R.S. Means File was independently created by
R.S. Means and not copied from another work; and
(2) the selection, arrangement, and coordination of
the preexisting materials or data comprising the
2008 R.S. Means File possess at least some minimal
degree of creativity; and
(3) the portion of the work that R.S. Means is
seeking copyright protection in is not an idea,
concept, principle, discovery, fact, actual event,
process, or method expressed or described in a
work?
Answer “Yes” or “No” Yes (3)
No (9)
If your answer to this question is “No,” don’t
continue with your analysis of R.S. Means’ claim for
infringement.

App. 118
4.7

COPYRIGHT
GENERALLY

INFRINGEMENT–

LIABILITY FOR INFRINGEMENT. One who
reproduces a copyrighted work without authority from
the copyright owner during the term of the copyright,
infringes the copyright.
If you’re persuaded that R.S. Means owns a valid
copyright, you can consider whether the CCD Parties
improperly copied R.S. Means’ copyrighted material. It
is the burden of R.S. Means to show that the CCD
Parties infringed on its valid copyright. This is called
“infringement” of a copyright. R.S. Means must show
that the CCD Parties infringed on its valid copyright.
In this case, R.S. Means claims that the CCD
Parties infringed its copyright in “RS Means 2008 Data
Compilation” by copying part[s] of it and including the
copied material in the CCD Parties’ work, the
“Construction Cost Catalogue.” To succeed on this
claim, R.S. Means must prove that CCD Parties copied
the part[s] of the “RS Means 2008 Data Compilation”
that the law protects.
There are two ways in which R.S. Means can prove
a claim of copyright infringement.
First, R.S. Means can show direct evidence that the
CCD Parties actually copied the copyrighted material.
For example, R.S. Means could introduce believable
eyewitness testimony or an admission by the CCD
Parties. Such direct evidence is rare.
Or second, R.S. Means can show indirect or
circumstantial evidence that the CCD Parties copied its

App. 119
work. For example, indirect evidence of infringement
may be proof that the CCD Parties tried to get a copy
of R.S. Means’ work and then published work
substantially similar to R.S. Means’ work. In general,
the two elements of infringement are (1) access and
(2) substantial similarity.
4.7.1 Copyright Infringement–Access & Substantial
Similarity
R.S. Means has the burden of proving that the CCD
Parties copied original elements from R.S Means’
copyrighted work. R.S Means may show the CCD
Parties copied from the work by showing by a
preponderance of the evidence that the CCD Parties
had access to R.S Means’ copyrighted work and that
there are substantial similarities between the
“Construction Cost Catalogue” and original elements of
the “R.S. Means 2008 Data Compilation”.
4.7.2 Copyright Infringement–Access
ACCESS DEFINED
As part of its burden in proving its copyright
infringement claim, R.S Means must show by a
preponderance of the evidence that the CCD Parties
had access to the “R.S. Means 2008 Data Compilation.”
You may find that the CCD Parties had access to R.S.
Means’ work if the CCD Parties had a reasonable
opportunity to view or access R.S. Means’ work before
the “Construction Cost Catalogue” was created.

App. 120
4.7.3 Copyright
Similarity

Infringement–Substantial

R.S. Means must prove that the CCD Parties’
accused work is substantially similar to its
copyrightable expression in the “RS Means 2008 Data
Compilation.” The CCD Parties’ accused work is
substantially similar in expression to R.S. Means’ if an
ordinary observer would conclude that the CCD Parties
unlawfully took R.S. Means’ protectable expression by
taking material of substance and value.
Even if the degree of similarity between the RS
Means 2008 Data Compilation and the CCD Parties’
accused work is small in quantity, you can still find
that there’s substantial similarity if the copied portions
of the RS Means 2008 Data Compilation are important
in quality.
But if the CCD Parties’ copying is minimal or
trivial, you shouldn’t find infringement.
SUBSTANTIAL SIMILARITY DEFINED
Substantial similarity is often determined by the
“ordinary observer” test, which provides that two works
are substantially similar where the ordinary observer,
unless purposefully trying to find differences, would
overlook them, and believe the two works were the
same.
To determine whether an instance of copying is
legally actionable, you should do a side-by-side
comparison of the “R.S Means 2008 Compilation,”
Defendants’ Exhibit 23/Plaintiffs’ Exhibit 22A, and the
“Construction Cost Catalogue,” Plaintiffs’ Exhibit 45, to

App. 121
determine whether a layman would view the two works
as substantially similar. A layman must detect copying
without any aid or suggestion or critical analysis by
others. Establishing the two works are substantially
similar should be spontaneous and immediate.
QUESTION NO. 22
Do you find by a preponderance of the evidence that:
(1)

the CCD Parties had access to the “R.S.
Means 2008 Data Compilation” and

(2)

an ordinary observer, upon looking at
both the “Construction Cost Catalogue”
and the R.S. Means 2008 Data
Compilation, would conclude that they
are substantially similar?

Answer “Yes” or “No” Yes (0)
No (12)
If you answer “no” to the question above, there is no
need to continue on in your analysis of the copyright
infringement claim.
4.8

COPYRIGHT
INFRINGEMENT–
VICARIOUS & CONTRIBUTORY
INFRINGEMENT–GENERALLY

Copyright may also be infringed by vicariously
infringing and contributorily infringing.
VICARIOUS INFRINGEMENT. A person is liable
for copyright infringement by another if the person has
profited directly from the infringing activity and the

App. 122
right and ability to supervise the infringing activity,
whether or not the person knew of the infringement.
CONTRIBUTORY INFRINGEMENT. A person is
liable for copyright infringement by another if the
person knows or should have known of the infringing
activity and causes or materially contributes to the
activity.
4.8.1 Derivative Liability–Vicarious Infringement–
Elements and Burden of Proof
If you find that there is a direct infringement, you
can then consider whether there has also been a
vicarious infringement. A “vicarious infringer” is one
who profits from a direct infringement while declining
to exercise its right and ability to stop or limit the
infringement.
Under this doctrine, a party is responsible for the
direct infringer’s acts if the party controlled or
supervised, or had the right and ability to control or
supervise, the direct infringer’s actions.
If you find that there has been a direct infringement
of R.S. Means’ copyrighted materials by one party (or
third party), you can consider whether there has been
“vicarious infringement” by another party.
To find that the CCD Parties are liable for another
party’s infringement, you must first find that the CCD
Parties had the right and ability to control or supervise
the other party’s infringing action and either controlled
the action, or failed to exercise its right and ability to
prevent the infringement. Also, you must find that the

App. 123
CCD Parties directly profited from the other’s
infringement.
QUESTION NO. 23
Do you find by a preponderance of the evidence that
any of the following parties vicariously infringed the
copyright of the R.S. Means 2008 Data Compilation?
Answer “Yes” or “No” for each:
Construction Cost Data LLC N(12)
Job Order Contract Group, LLC N(12)
Mark Powell N(12)
Benjamin Stack N(12)
4.8.2 D e r i v a t i v e
Infringement

Liability–Contributory

A defendant may be liable for copyright
infringement engaged in by another if it knew or had
reason to know of the infringing activity and
intentionally induces that infringing activity. If you
find that any of the CCD Parties infringed R.S Means’
copyright in the R.S. Means 2008 Data Compilation,
you may proceed to consider R.S Means’ claim that the
CCD Parties contributorily infringed that copyright. To
prove contributory infringement, the plaintiff must
prove both of the following elements by a
preponderance of the evidence: (1) the CCD Parties
knew or had reason to known of the infringing activity
of the infringing party and (2) the CCD Parties
intentionally induced the CCD Parties’ infringing
activity. If you find that any of the CCD Parties

App. 124
infringed R.S Means’ copyright and you also find that
R.S Means has proved both of these elements, your
verdict should be for R.S Means. If, on the other hand,
R.S Means has failed to prove either or both of these
elements, your verdict should be for the CCD Parties.
QUESTION NO. 24
Do you find by a preponderance of the evidence that
any of the following parties contributorily infringed the
copyright of the R.S. Means 2008 Data Compilation?
Answer “Yes” or “No” for each:
Construction Cost Data LLC N(12)
Job Order Contract Group, LLC N(12)
Mark Powell N(12)
Benjamin Stack N(12)
4.9

UNFAIR COMPETITION

Unfair competition is the use or simulation by one
person of the name, symbols, or devices of a business
rival in such a manner as is calculated to deceive and
cause the public to deal with the second user when they
intended to and would otherwise have dealt with the
first user. To prove unfair competition, it is not
necessary to prove that any of the CCD Parties
intended to deceive the public or that anyone was
actually deceived. However, either actual or probable
deception must be shown, and a mere possibility of
deception is not enough.

App. 125
Question No. 25
Do you find that any of the following parties
engaged in unfair competition against The Gordian
Parties or R.S. Means? Answer “Yes” or “No” for each:
Construction Cost Data LLC N(12)
Job Order Contract Group, LLC N(12)
Mark Powell N(12
Benjamin Stack N(12)
4.10
4.10.1

DEFENSES
Copyright–Independent Work

The CCD Parties contend that there is no copyright
infringement. There is no copyright infringement
where the CCD Parties independently created the
challenged work – without copying R.S. Means’
copyrighted work.
QUESTION NO. 26
Do you find by a preponderance of the evidence that
the CCD Parties created the “Construction Cost
Catalogue” independently?
Answer “Yes” or “No” No (12)
4.10.2

Copyright–Fair Use

The CCD Parties claim, as an affirmative defense,
that its use of R.S. Means’ copyrighted work is a fair
use. A fair use isn’t an infringement of copyright. The
CCD Parties must prove fair use by a preponderance of
the evidence. Certain uses recognized as favoring fair

App. 126
use include criticism, parody, comment, news
reporting, teaching, scholarship, and research. (These
examples are illustrative.)
To determine whether the CCD Parties’ use of “R.S.
Means 2008 Data Compilation” qualifies as a “fair use,”
consider the following four factors:
1. The Purpose and Character of the CCD Parties’
Use.
The first factor looks at whether the CCD Parties’
use supersedes the use of R.S. Means’ copyrighted work
or, instead, adds new meaning, expression, or
otherwise uses “R.S. Means 2008 Data Compilation” for
a different purpose. It asks whether and to what
extent, the CCD Parties’ use is transformative. One
example of a transformative use is a parody, which
uses the original copyrighted work to comment on or
criticize it. The first factor also looks at whether the
use is commercial or noncommercial. The focus of this
distinction isn’t whether the motive of the use is
monetary gain, but whether the user stands to profit
from using the copyrighted work without paying the
customary price. Analysis of the first factor can affect
the remaining factors. The more transformative the
use, the less likelihood that the use substitutes for the
copyrighted work, and thus the less significance is to be
afforded other factors, such as the effect on the
potential market for or value of “R.S. Means 2008 Data
Compilation”.
2. The Nature of R.S. Means’ Copyrighted Work.
The second factor recognizes that some works may
be used more freely, or more fairly, than others. Uses

App. 127
of factual, purely useful, or derivative works are more
likely to amount to fair use than uses of works such as
fiction. Similarly, uses of published works are more
likely to amount to fair use than uses of unpublished
works. Also, out-of-print works that are no longer
available for purchase through normal channels are
more susceptible to fair use.
3. The Amount and Importance of the Portion
Used.
The third factor considers whether the amount and
importance of the portion taken was reasonable in light
of the purpose of the CCD Parties’ use and the
likelihood that the CCD Parties’ use will supersede the
use of R.S. Means’ copyrighted work.
4. The Effect on the Potential Market or Value of
R.S. Means’ Copyrighted Work.
Under this factor, you should consider not only
actual markets for R.S. Means’ copyrighted work, but
also markets likely to be developed. And you should
consider not only the harm caused by the CCD Parties’
use, but also whether widespread uses of the same sort
by others would result in a substantial adverse effect
on a market, or potential market, for R.S. Means’
copyrighted work. Ask yourself: does the CCD Parties’
use supersede or impermissibly harm the market or
potential market for R.S. Means’ copyrighted work?
R.S. Means can’t preclude some transformative uses –
even if the use may result in some harm to its markets.
For example, an effective parody may lower demand for
the original copyrighted work, but this isn’t the type of
harm considered under this factor.

App. 128
Balancing the Four Factors
You should explore all four factors and weigh the
results together. You should consider the purposes of
copyright: first, to promote public access to knowledge
and new ideas, and second, to give authors an incentive
to create copyrighted works for the public’s benefit.
QUESTION NO. 27
Balancing the factors explained above, do you find
that the CCD Parties has proved fair use by a
preponderance of the evidence?
Answer “Yes” or “No” ______
5. FINAL INSTRUCTION: DUTY TO DELIBERATE
It is now your duty to deliberate and to consult with
one another in an effort to reach a verdict. Each of you
must decide the case for yourself, but only after an
impartial consideration of the evidence with your fellow
jurors. During your deliberations, do not hesitate to reexamine your own opinions and change your mind if
you are convinced that you were wrong. But do not give
up on your honest beliefs because the other jurors
think differently, or just to finish the case.
Remember at all times, you are the judges of the
facts. You have been allowed to take notes during this
trial. Any notes that you took during this trial are only
aids to memory. If your memory differs from your
notes, you should rely on your memory and not on the
notes. The notes are not evidence. If you did not take
notes, rely on your independent recollection of the
evidence and do not be unduly influenced by the notes

App. 129
of other jurors. Notes are not entitled to greater weight
than the recollection or impression of each juror about
the testimony.
When you go into the jury room to deliberate, you
may take with you a copy of this charge, the exhibits
that I have admitted into evidence, and your notes. You
must select a presiding juror to guide you in your
deliberations and to speak for you here in the
courtroom.
Your verdict must be unanimous. After you have
reached a unanimous verdict, your presiding juror
must fill out the answers to the written questions on
the verdict form and sign and date it. After you have
concluded your service and I have discharged the jury,
you are not required to talk with anyone about the
case.
If you need to communicate with me during your
deliberations, the presiding juror should write the
inquiry and give it to the court security officer. After
consulting with the attorneys, I will respond either in
writing or by meeting with you in the courtroom. Keep
in mind, however, that you must never disclose to
anyone, not even to me, your numerical division on any
question.
January 22, 2019
/s/ Keith P. Ellison
KEITH P. ELLISON
UNITED STATES DISTRICT JUDGE

